<html>
<title> - ENVIRONMENTAL EDUCATION: TEACHING OUR CHILDREN TO PRESERVE OUR FUTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   ENVIRONMENTAL EDUCATION: TEACHING 
                  OUR CHILDREN TO PRESERVE OUR FUTURE 

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

               HEARING HELD IN LAUREL, MD, APRIL 22, 2008

                               __________

                           Serial No. 110-87

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-810 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     [Vacancy]












































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 22, 2008...................................     1

Statement of Members:
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     2
        Submissions for the record:
            Statement of Zenobia Barlow, cofounder and executive 
              director, the Center for Ecoliteracy...............    49
            Statement of William C. Baker, the Chesapeake Bay 
              Foundation.........................................    50
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor, prepared statement of...............................    51
    Sarbanes, Hon. John P., a Representative in Congress from the 
      State of Maryland:
        Prepared statement of....................................    52
        Additional submissions:
            Statement of Joe Harber, director, education program, 
              National Aquarium..................................    53
            Statement of Larry Schweiger, president and CEO, 
              National Wildlife Federation.......................    54
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California, prepared statement of.................    57

Statement of Witnesses:
    Davidson, Sean, co-founder, Greenlight Biofuels..............    35
        Prepared statement of....................................    37
    Grasmick, Dr. Nancy S., Maryland State superintendent of 
      schools....................................................    13
        Prepared statement of....................................    15
    Harris, Karen, principal, Pot Spring Elementary School.......    18
        Prepared statement of....................................    21
    Lawrence, Robert S., M.D., director, Center for a Livable 
      Future, and professor of environmental health sciences, 
      Johns Hopkins Bloomberg School of Public Health............    28
        Prepared statement of....................................    29
    O'Malley, Hon. Martin, Governor, State of Maryland...........     2
        Prepared statement of....................................     4
        Executive Order (01.01.2008.06), ``Maryland Partnership 
          for Children in Nature''...............................    58
    Pergams, Dr. Oliver R. W., director, Red Rock Institute, 
      Inc.; conservation biologist, University of Illinois at 
      Chicago....................................................    23
        Prepared statement of....................................    25


 ENVIRONMENTAL EDUCATION: TEACHING OUR CHILDREN TO PRESERVE OUR FUTURE

                              ----------                              


                        Tuesday, April 22, 2008

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:00 a.m., at 
the National Wildlife Visitor Center of the Patuxent Wildlife 
Research Refuge, 10901 Scarlet Tanager Loop, Laurel, Maryland, 
Hon. Dale E. Kildee [chairman of the Subcommittee] presiding.
    Present: Representatives Kildee, Grijalva, and Sarbanes.
    Also Present: Representative Bordallo.
    Staff Present: Tylease Alli, Hearing Clerk; and Lloyd 
Horwich, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education.
    Chairman Kildee. I know every governor is very busy. And 
Governor O'Malley I know is especially busy. I read what is 
going on in Maryland all the time. Two of my children have 
chosen Maryland as their home. So, Governor, I want to get to 
you right away.
    I am pleased, first of all, to welcome my fellow 
Subcommittee members, as well as the Chairman of the 
Subcommittee that has a deep interest in this in the Resources 
Committee, Madeleine Bordallo from Guam. My son has flown there 
many times. And he says it is the longest flight in the world. 
So, Ms. Bordallo, we very much appreciate you being here also.
    And we want to thank the teachers and the students. I tell 
people in real life, I was a school teacher. I was not teacher 
of the year. I didn't quite make that. I was teacher of the 
month. So I still have that plaque for that.
    This is a very important topic, a topic that Mr. Sarbanes 
has brought to us and which we hope we can integrate into our 
bill, No Child Left Behind, teaching our children to preserve 
our future. I specifically want to recognize him and Raul 
Grijalva. Raul fights for water out in Arizona. He sees the 
water here and knows how important that is. And the others who 
are here today, I also appreciate that.
    I thank all the audience, people who have come here because 
of their deep interest. Because the Governor's time is 
extremely busy, I will go immediately to Governor O'Malley. 
And, Governor, thank you for all that you are doing.

 Prepared Statement of Hon. Dale E. Kildee, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    I'm pleased to welcome my fellow Subcommittee Members, 
Congresswoman Bordallo, the many students and teachers who are with us 
today, and our witnesses, to this hearing on ``Environmental Education: 
Teaching Our Children To Preserve Our Future.''
    I specifically want to recognize Representative Sarbanes for his 
leadership on environmental education--a number of our witnesses will 
testify in support of his No Child Left Inside Act--and also for having 
suggested this beautiful location for today's hearing.
    And, I want to thank all the people here at the Patuxent Wildlife 
Research Refuge for their hard work in hosting us, today. It is 
especially appropriate that we are discussing environmental education 
on the 38th annual Earth Day. The purpose of Earth Day is to raise 
awareness of the environment and promote ways to protect it. And as is 
the case with so many of the challenges that our country faces, the 
best answer is education.
    Our witnesses will testify about environmental education from a 
wide range of perspectives and experiences--we have a governor, state 
superintendent, school principal, two professors, and a recent college 
graduate who co-founded a biofuel company.
    But I believe that in the end, they all will testify in support of 
the same principles:
    <bullet> first, that for environmental education to be effective, 
we must not treat it as separate from other areas of our studies or our 
lives, but as an integral part of each of them--environmental education 
can be integrated into math, reading, science, art and virtually any 
other subject.
    <bullet> and, second, that if we do not support environmental 
education, we will--quite literally--jeopardize our children's health 
and our country's future.
    As we will hear, environmental education can be an ideal way to 
engage even the most difficult to teach students, because it makes 
learning fun and relevant.
    And, I would add, environmentally sound school buildings contribute 
not only to students' and teachers' ability to learn and to teach, but 
also to the health of everyone who spends time in schools and to 
teachers' and principals' and other school workers' job satisfaction.
    We will hear that environmental education can get children back 
into the outdoors where they can get physically fit and learn about 
healthy eating and the importance of our natural resources.
    And, we will hear that good business practices and good 
environmental practices can be one and the same.
    I know that many of you have spent the morning so far engaging in 
hands-on environmental learning, and I hope that you find this hearing 
equally interesting and rewarding.
    Again, thank you all for being here.
                                 ______
                                 

   STATEMENT OF MARTIN O'MALLEY, GOVERNOR, STATE OF MARYLAND

    Governor O'Malley. Mr. Chairman, thank you very, very much 
and the members of the Subcommittee. Welcome to the great State 
of Maryland. And to Congressman Sarbanes, thank you very much 
for your leadership and for your partnership and for really 
being at the forefront of ushering in a new generation of 
renewed commitment to the environment.
    Mr. Chairman, Dr. Martin Luther King said that the mark of 
a true education is ``intelligence plus character.'' And for 
those reasons, I think most of the people that look at the 
well-rounded education will have to acknowledge that kids do 
better or children do better in reading and math when they also 
have the ability to study music and to study art and to become 
not only students but engaged in science and, in particular, 
environmental science.
    At its core, true education is about teaching our children 
to be responsible citizens of the world. And what better than 
Earth Day to discuss ways to impress upon our children the 
virtue of service to the common good. It is a time that we set 
aside to remind ourselves that all of us must ``think globally 
and act locally.''
    The No Child Left Behind legislation is designed to help 
those of us at the state level who embrace the vision of 
education which believes that connecting students with nature 
is really an essential part of their development as fully 
engaged citizens. It is rooted in the hope and belief that 
today's young people will do a better job caring for our 
environment and this increasingly smaller planet than, quite 
frankly, generations before them have.
    When it comes to our children's attention, nature has a lot 
of competition these days between the television and the video 
games and the other attractions of the so-called modern world. 
And in these difficult economic times, as parents are working 
two and sometimes three jobs in a single household trying to 
make ends meet, it is hard to carve out the time to share the 
outdoors with their children. But schools do play and can play 
an even greater role in bringing our young people closer to 
nature.
    As we work at the state level to implement more 
environmental education opportunities in our schools, the No 
Child Left Inside bill will provide significant assistance by 
providing grants to support and counterbalance portions of 
modern education that often emphasize too much the testing day 
aspects of education without emphasizing the other aspects of a 
full education.
    Yesterday I signed an executive order, Mr. Chairman, which 
directed our state agencies to work in concert with local, 
private and nonprofit partners on expanding environmental 
education in Maryland.
    We hope to be the first state in the union to have an 
environmental literacy plan. And the goal is to create what we 
call the Partnership for Maryland Children in Nature and charge 
it with three main tasks: number one, to develop an 
environmental literacy plan that will create a statewide 
strategy for implementing environmental education opportunities 
in our schools; number two, to connect existing camps and other 
outdoor programs to state learning standards and to increase 
participation of particularly underprivileged and under-served, 
historically under-served students.
    We already have some promising initiatives underway. 
Beginning this summer, participants will earn an hourly wage 
while conducting conservation projects engaging in nature 
immersion experiences, developing marketable job skills for our 
increasingly greener economy; and, number three, to increase 
opportunities for learning and recreation in natural settings.
    We are working to connect communities with parks via 
walkable trails, working with private and local entities to 
create and improve natural play zones in undeveloped pockets of 
local parks and neighborhood, and converting asphalt and empty 
lawns into nature landscapes.
    In conclusion, Mr. Chairman, as we recognize Earth Day, we 
must also recognize that the discussions we make in the here 
and now will determine what sort of Earth we leave to our 
children. We will create a generation of environmental stewards 
who realize humankind sacred responsibility to our land, our 
air, our water. We have to make the choices now that enable us 
to do that.
    If we invest in environmental education today, it is our 
belief that there will come a time when our young people 
graduate high school not only with intellectual abilities but 
also with a greater connection that creates greater action for 
a much better Earth to leave to our grandchildren and to 
theirs.
    Thank you very, very much.
    [The testimony of Governor O'Malley follows:]

Prepared Statement of Hon. Martin O'Malley, Governor, State of Maryland

    Mr. Chairman, Ranking Member Castle, Members of the Subcommittee, 
thank you for holding this hearing and welcome to the great State of 
Maryland--we are honored to have you here. Before I offer some words in 
support of the legislation you are considering today, I wanted to take 
a brief moment to recognize Congressman Sarbanes, whose leadership and 
partnership have been so critical to our efforts to return Maryland to 
progress.
    Mr. Chairman, Martin Luther King said that the mark of a true 
education is ``intelligence plus character.'' That's really what this 
legislation is about. If we truly wish to prepare our children for the 
challenges of tomorrow, we must recognize that education can be about 
so much more than reading, writing and arithmetic.
    At its core, true education is about teaching our children to be 
responsible citizens of the world--about instilling them with the ideal 
that each individual can make a difference, and that all of us must 
try.
    There is no better time than Earth Day to discuss ways to impress 
upon our children the virtue of service to the common good. Earth Day 
is a time we set aside each year to remind one another that all of us 
must ``think globally and act locally''--that each of our individual 
actions have global consequences, and that there is a unity to spirit 
and matter, and the things we do in this life do matter.
Why this legislation matters
    Here in Maryland, we recognize the importance of providing 
opportunities for citizens to recreate outdoors and we are committed to 
getting kids re-connected to nature. There is no better way to 
demonstrate the paramount importance of this issue, than to make sure 
that all students, regardless of socio-economic status, have the 
opportunity to experience our great outdoors.
    When students are taught environmental education in schools, we 
know that their learning is enhanced, and that they have better problem 
solving skills than students who don't use the environment as an 
integrated learning context.
    Research has shown us that spending time outside of the classroom 
for learning during the school day is important to the intellectual, 
emotional, and physical health of our children. Moreover, exposing 
students to the natural world can improve their overall academic 
success, self-esteem, sense of community, personal health and 
understanding of the environment.
    This issue goes even beyond the scope of environmental education by 
considering how children grow and learn, and by looking holistically at 
their development. We must provide for their physical, emotional, and 
intellectual aptitude.
    I believe we must pursue every avenue to reconnect our children 
with their natural world before it is too late. Environmental education 
increases student engagement in science, improves student achievement 
in core subject areas such as reading and math, and increases student 
awareness about individual actions they can take to restore the health 
of the natural environment. It is incumbent upon us to make a 
commitment that will ensure that our children grow to become informed 
and responsible stewards of the environment. It is our responsibility 
to make sure they are prepared to address future environmental 
challenges and opportunities as individual citizens, as members of the 
workforce, and as parents who will prepare their own children to live 
responsibly in our world.
    Our schools must play a special role in bringing our young people 
closer to nature because there are increasingly less opportunities for 
children to enjoy nature outside of the school setting. In these 
difficult economic times, when parents are working harder and 
struggling to pay bills, it can be difficult to find the extra time--or 
for those who do not live in proximity to open space, the extra money--
to share the outdoors with their children.
    Additionally, when it comes to our kids' attention, nature has a 
lot of competition these days. Between television, the internet, video 
games and other distractions, it is fair to say that going for a hike 
or enjoying the outdoors is not always on the top of every child's 
wish-list.
    As we work at the state level to implement more environmental 
education opportunities in our schools, the No Child Left Inside bill 
would provide significant assistance through grants and support, and 
counterbalancing portions of the No Child Left Behind law which scaled 
back hands-on learning opportunities and environmental education.
Maryland's response
    Maryland intends to be a national leader in assuring that school-
aged children have opportunities to learn from nature. As a major step 
toward this goal, on April 18, 2008, I signed an Executive Order 
directing Maryland state agencies to work together, along with local, 
private and non-profit partners, to help our kids reconnect with nature 
through every avenue available to us. The Executive Order has four key 
components that will help us ensure no Maryland child is left inside:
            1. Partnership for Children in Nature
    The Executive Order establishes a Maryland Partnership for Children 
in Nature that again, includes government agencies and NGOs, to oversee 
a multitude of state initiatives that will be implemented through 
public and private partnerships. This Partnership has been tasked with 
ensuring the development and implementation of a number of key new 
initiatives; the Partnership will also be responsible for identifying 
new funding for these initiatives and for evaluating our progress and 
the progress of our children.
            2. State-wide Environmental Literacy Plan
    The Partnership has been tasked with developing a state-wide 
Environmental Literacy Plan to ensure students are exposed to the 
natural environment at school.
    This plan will examine model outdoor programs, model curriculum and 
professional development opportunities for teachers. It will also look 
at graduation standards to make sure we are producing environmentally 
literate graduates. To accomplish this, we will need to identify 
current resources, existing standards, and current model programs that 
provide students with meaningful outdoor experiences. As such, we must 
make sure that our teachers are prepared to provide these types of 
experiences for students by providing them with exemplary professional 
development opportunities.
    Maryland is fortunate to have some important tools already in 
place: We have an Environmental Education By-law, we have the 
Chesapeake 2000 Commitment to provide every student with a Meaningful 
Watershed or Outdoor Experience, and we have environmental issues 
integrated into our learning standards. But, we can and must go 
farther. We will track whether or not our students are graduating as 
environmentally literate citizens, and we will measure our successes 
and improve in areas that need improvement.
            3. Increase Opportunities for Outdoor Learning
    The Partnership is also tasked with increasing opportunities for 
outdoor learning by connecting our Department of Natural Resources 
camps and other outdoor programs to state learning standards, and by 
engaging at-risk youth in outdoor restoration and recreation 
activities.
    By offering more opportunities for structured outdoor learning, it 
will be easier for teachers to justify attending outdoor programs 
during the school day by aligning them with the Voluntary State 
Curriculum learning standards. In this way, students are still learning 
required content material while being exposed to the outdoors.
    Research has shown that exposure to natural areas thorough mentors 
dramatically increases stewardship and the willingness to make positive 
environmental choices. That is why we aim to increase the availability 
of park naturalists and train staff specifically to work with school 
groups.
    We also aim to increase minority visitation to state public lands. 
All too often, minorities don't see themselves as being an important 
contributor to environmental issues. However, the decisions that all of 
us make on a collective basis have a dramatic impact on the 
environment. That is why it is important to make the extra effort to 
reach out to those communities that feel disenfranchised or may not 
have the resources or background to make informed decisions about the 
environment.
    Additionally, we are particularly excited about our new Civic 
Justice Corps through which we are recruiting court-involved youth to 
participate in a summer service program at our State Parks and other 
conservation lands. On a parallel track we are also recruiting 
disadvantaged youth from our underserved urban communities--beginning 
this summer in Baltimore City--to participate in a similar program. 
Participants in both programs will earn an hourly wage while they 
conduct conservation projects, engage in nature immersion experiences 
and develop marketable job skills for our increasingly green economy.
            4. Provide Opportunities for Structured and Unstructured 
                    Play
    At the state level, we are also looking at ways to provide 
opportunities for youth to have structured and unstructured time in 
natural settings for both play and learning. As a result of abundant 
time spent playing outdoors young people form deep and personal bonds 
with nature. This connection inspires and motivates children to become 
stewards of the environment, and enriches their physical and mental 
well-being.
    We want to connect communities with local and state parks through 
the development of walkable trails that will encourage visitation to 
these areas. By connecting schools to these public lands, we can 
encourage outdoor education, environmental clubs, and awareness of the 
importance of these open spaces.
    By expanding schoolyard habitat programs, we will be converting 
asphalt and empty lawns into natural landscapes that serve as dynamic 
learning tools for students. Teachers from all subject areas can 
utilize these spaces, demonstrating to students that math, science, 
language arts, and physical education are not disconnected and discreet 
subject areas, but rather integrated topics that enhance their 
learning.
    We will work with private and local entities to develop policies 
and plans that promote natural play areas. This incentive-based program 
will provide for the improvement of natural play zones in the 
undeveloped pockets of local parks and urban and suburban 
neighborhoods.
Conclusion
    We must take actions to ensure that young people develop this 
stewardship ethic. These actions should manifest themselves through 
federal, state, local and private initiatives. The No Child Left Inside 
Act of 2007 will make the United States a world leader in developing 
this stewardship ethic on a national scale; it will serve as an example 
for state jurisdictions to do the same on a localized scale; it will 
set the stage for a sustainable future; and most importantly, it will 
put the physical, intellectual and spiritual needs of our children 
first.
    As we recognize Earth Day, we must also recognize that the 
decisions we make in the here and now will determine what type of 
planet we leave our children. Will we create a generation of 
environmental stewards who realize humankind's sacred responsibility to 
our land, our water, and our air? Will they treat our planet better 
than we did? Will they allow the circumstances they inherit to change 
them, or will they feel that desire in their hearts to change their 
circumstances?
    If we invest in environmental education today, it is our belief 
that there will come a time when our young people graduate high school 
not only with the intellectual ability to tackle complex environmental 
challenges--but also with the will and desire to care for and save our 
planet.
    Thank you.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Governor. Thank you. 
[Applause.]
    If I could ask just one question, Governor?
    Governor O'Malley. Yes, sir?
    Chairman Kildee. In your testimony, you described a 
partnership of state and local agencies, businesses, and 
nonprofit organizations, many of which I see here today. Can 
you discuss the importance of making sure that multiple 
stakeholders are involved in these programs?
    Governor O'Malley. Yes, sir. You know, we are blessed in 
Maryland with the tremendous awareness of our proximity to the 
water and how human activities impact the Chesapeake Bay 
region. We have a number of great organizations. Many of them 
are represented here today, all of whom collectively have a 
tremendous awareness of what assets there are in our state that 
can be connected to the classroom and to our kids.
    For that reason, we want to create a broad-based coalition 
of people that we can bring into this effort, whether they are 
the river-keeper organizations, whether it is the Chesapeake 
Bay Foundation, and our state park networks and friends, like 
Parks and People. They are all very important because it is in 
the overlaying and overlapping of these organizations and their 
experiences that we really create the opportunities and the 
multiple opportunities, frankly, for our students not only to 
engage in the course of the curriculum offered in school, but, 
as importantly, to engage in after-school hours with the 
resources that are out there and available to them.
    Chairman Kildee. Thank you, Governor.
    Mr. Sarbanes, you have a question of your Governor.
    Mr. Sarbanes. Thank you, Mr. Chairman. And, again, I 
appreciate very much your willingness to conduct this field 
hearing. The whole idea here was we wanted to emphasize the 
point of bringing children from indoors to the outdoors by 
doing it ourselves. And we got incredibly lucky with the 
weather. And so whatever you did to pull those strings, I thank 
you for that as well.
    Governor, your leadership with respect to the environment 
is well-known to Marylanders and becoming well-known across the 
country. And I thank you for it.
    There is a real synergy between what we are trying to do 
with No Child Left Inside and what you propose with your 
executive order because No Child Left Inside is encouraging 
states to develop these environmental literacy plans and 
encouraging them by offering funding that can help support 
activities behind those. And Maryland is clearly positioning 
itself to be at the forefront and to have that kind of 
environmental literacy plan when it comes to the federal 
government and says ``We need the resources to support it.'' So 
it is I think a great example of the partnership between the 
federal government and the state government.
    My question is with respect to the economic opportunities 
that can come from getting the next generation on the cutting 
edge with environmental education, science, STEM, as you 
mentioned before. But I'm sure as you have attended these 
conferences of governors across the country, you are hearing 
about the whole green job movement, which is something that 
environmental education obviously sets up in a very 
constructive way.
    So I thought you could maybe just speak to the green job 
movement, how you see the economic linkages with environmental 
education in the State of Maryland.
    Governor O'Malley. Sure. I will do my best. We have the 
urgent necessity to find a much more sustainable way to fuel 
our economy in the literal sense. And, to that end, there have 
been a number of initiatives that have taken place over the 
last 14 months in Annapolis. They have put together sort of the 
strands of an energy policy that is cleaner and that is greener 
and that is also much more broad-minded than simply looking at 
what is coming out the nozzle that goes into the gas tank. What 
do I mean by that?
    We have created a much broader renewable portfolio standard 
in our own energy consumption in our state, I believe a goal 
now of 20 percent. We have increased the tax incentives for 
solar and also geothermal.
    We just passed--and I think I am signing tomorrow--is it 
tomorrow?--two days, Thursday, our green buildings legislation. 
And we are requiring our state buildings that are going to be 
built in the future, that they will have, especially our 
schools, that they will be built green and that we will strive 
for those LEED certifications. So these are all efforts that 
dovetail nicely with environmental awareness and environmental 
literacy.
    In order to create the sort of support and public support 
for those initiatives, which, yes, may cost a little more today 
but save us over the long term. It is critically important that 
our children not only be aware of the civics and that we are a 
representative democracy but also aware that the most important 
responsibility we have in securing the blessings of liberty is 
to be responsible for securing them for future generations. And 
it is only in the intersection of those two that you create the 
public will I believe to make this transformation to the green 
economy.
    So they both have to go together. Otherwise our efforts 
will be short-lived and will pass and fade as leaders pass and 
fade, but if it can become something that is truly inculcated 
into every successive generation, then we have the makings for 
a transformation that is truly revolutionary and in keeping 
with our American traditions.
    Mr. Sarbanes. Thank you. Thank you, Mr. Chairman.
    Chairman Kildee. Thank you. [Applause.]
    You have half past. Do you want to yield to Mr. Grijalva?
    Mr. Sarbanes. Yes, sir.
    Mr. Grijalva. No. Just to thank you, Governor, I appreciate 
your leadership very much.
    This issue is a tremendously important issue because it is 
about the future. And I am happy to join with my colleague Mr. 
Sarbanes in pushing that legislation and very appreciative of 
your leadership.
    Chairman Kildee. Congressman, thank you.
    And the gentlelady from Guam, Mrs. Bordallo?
    Ms. Bordallo. Thank you very much, Mr. Chairman. And I, 
too, would like to go on record to thank the Governor.
    It is so appropriate. It is Earth Day today and for your 
state to take this first step and, of course, to my colleague 
for introducing this very important piece of legislation.
    I have already spoken to him because in reading the 
legislation, I noticed it emphasized the states. And I told him 
to be sure and add the territories. [Laughter.]
    But I think there is so much talk right now about the 
global warming, the environment. And it all starts with our 
children. They must receive this education to protect our 
environment. And what a great way to start.
    I want to congratulate you, Governor and all of the 
residents of Maryland and, of course, your congressman here, 
for having the foresight to get this piece of legislation out. 
And I support it.
    Governor O'Malley. Thank you.
    Chairman Kildee. Governor, thank you very, very much.
    Governor O'Malley. Thank you.
    Chairman Kildee. And you go with our good thoughts and our 
prayers. Thank you very much.
    Governor O'Malley. Thanks so much. Thank you, Congressman.
    Mr. Sarbanes. Thank you. [Applause.]
    Chairman Kildee. The Chair will note the presence of a 
quorum for the record. This record will become part of the 
permanent record of the Congress of the United States. And 100 
years from now, people will be able to read this record in the 
Library of Congress. So these words are very important.
    Pursuant to Committee rule 12A, any member may submit an 
opening statement in writing, which will also be made a part of 
the permanent record.
    Just a statement of my own. It is especially appropriate 
that we are discussing environmental education on the 38th 
annual Earth Day. I can recall in 1965 my first year serving in 
the state legislature in Michigan coming to Washington to see 
how to clean up Lake Erie. And we were actually told by most of 
the people that ``It is probably too late to clean up Lake 
Erie.''
    They were wrong. Once we quit dumping the gunk and all of 
the stuff into Lake Erie, it began to clean itself up, not as 
clean as we would like it but far cleaner than what it was in 
1965. And we learned something from that. We have to be great 
custodians of our waters and of our land.
    The purpose of Earth Day, then, is to raise awareness to 
the environment and to promote ways to protect it. And, as is 
the case with so many challenges, the best answer is education. 
If you know, you can do.
    Our witnesses today will testify about environmental 
education from a wide range of perspectives and experiences. 
You heard the Governor. We will hear the state superintendent, 
a school principal, two professors, and a recent college 
graduate who co-founded a biofuel company.
    I believe that in the end, they all will testify in support 
of the same principles, first that for environmental education 
to be effective, we must not treat it as separate from other 
areas of our studies or our lives but as an integral part of 
each of them.
    You know, in the math class, when you go out and take 
specimens, you can count how many per square foot or whatever 
it may be. You can integrate that into a math class.
    In literature, I was a Latin and English teacher. When you 
talk about Walden Pond, it might be good to find a pond to go 
out and talk about that. It can be integrated into the system. 
And I think that should be an important aspect of the bill. And 
Mr. Sarbanes' bill lends itself to that type of integration.
    If we do not support environmental education, we will quite 
literally jeopardize our children's health and our country's 
future. We have the opportunity in our generation.
    I am 78 years old. What we do will affect me for a few more 
years. But those children who were here and are here, it will 
affect them for many, many years. We have a responsibility to 
them. And they have a great task that we are going to pass on 
to them.
    I would add environmentally sound school buildings 
contribute not only to students' and teachers' ability to learn 
and to teach but also to the health of everyone who spends time 
in schools and to teachers and principals and other workers' 
job satisfaction.
    We will hear that environmental education will get children 
back into the outdoors, where they can get physically fit and 
learn about healthy eating and importance of our natural 
resources.
    When I was young, we used to have what was called for the 
children who were not that healthy fresh air schools. I think 
every school can provide a real fresh air element. And just 
look at the opportunities you have here in Maryland. Take 
students out of the classroom at times. Let them see the assets 
we have here in our environment.
    And we will hear about good business practices and good 
environmental practices. They can be one and the same. There is 
no real conflict.
    So, again, thank you for being here. Chairman Miller had 
hoped to be here today, but he is unable. With that, we will 
call up our panel.
    At this point before we call up the second panel, I know 
you had a question for the Governor, Mr. Sarbanes, but if you 
have an opening statement, you may do that at this time.
    Mr. Sarbanes. Thank you, Mr. Chairman. I will keep it brief 
because I know we want to get started on this excellent panel 
of witnesses that is coming forward.
    I just want to emphasize a couple of things. First of all, 
I want to thank the staff here at Patuxent Wildlife Refuge for 
all of the logistical support to make this happen. [Applause.]
    I have been here a number of times to various events. And 
every time it goes off without a hitch. I will knock on wood 
since I know we are not quite finished, but I think it will go 
off. And the weather, of course, is beautiful today.
    I want to thank the Committee staff for working to help 
make this possible. Delicia Reynolds on my own staff, who was 
the point person, I want to thank her for her efforts. 
[Applause.]
    And I just wanted to make a point for the students who are 
here. And, really, they are what it is all about. And I am 
going to be very brief because, Mr. Chairman, I might ask one 
student to come up and for 30 seconds say what he did today 
just to kind of set the tone for the witnesses that are coming 
forward.
    To me the most important thing is the mutuality dimension 
of caring for our environment. And I particularly think of that 
with respect to the Chesapeake Bay. The Chesapeake Bay 
Watershed, of course, includes six states and the District of 
Columbia.
    And I have gone to members of Congress who represent places 
in New York and talked to them about how much I care about a 
stream or river that is in their district. And they have looked 
a little bit perplexed and wondered why. And then I explain 
because the watershed begins in your district, as far north, in 
fact, as Cooperstown, New York.
    So the notion that we can escape the obligation to our 
environment by being a little bit more removed is delusional, 
really. And the way we are going to save this Bay, the 
Chesapeake Bay, the way you are going to save it, the way the 
students who are here are going to save it, is by tending to 
the needs of our environment, again, right there in their own 
backyard.
    Somebody handed me this Family Circus cartoon from today. I 
didn't see it. But if any of you have not seen it, you should. 
It is a picture of these two boys. I don't know their names, 
actually, the Family Circus boys. They are sitting under a 
tree, chewing on a blade of grass. And one says to the other, 
``This is my favorite learning place: Schoolhouse Earth.'' And 
so that is the point that we are trying to make here today.
    Mr. Chairman, if for one minute we could just have Jonathan 
Baker, who is with Edgewood High School, if I could yield 60 
seconds of my time? If you want to just come right up here to 
the mike and just tell us very briefly--Jonathan is from 
Edgewood High School in Harford County--what they were doing 
today?
    Chairman Kildee. Without objection, Jonathan is recognized.
    Mr. Sarbanes. Thank you very much, Mr. Chairman.
    Mr. Baker. Thank you, everybody. I would just like to say 
what a great day to be outdoors we have here. I mean, it is 
Earth Day. It was a nice day out here.
    Today what we were doing in the rivers, we were checking 
for the biodiversity that all the animals and plants that we 
had out here were. And we were just checking the water quality 
of this lake here in an ultimate effort to check the watershed 
area of the Chesapeake Bay. And we found tons of different 
species of fish and plants and macroinvertebrates, shows that 
the water quality is good.
    But things can always get better, you know. And 
environmental education, really, for me has taken it to the 
next level because it provides an authentic experience, where 
you are outside and you are actually doing things and getting 
the interest that you need and the commitment that you want.
    Mr. Sarbanes. Thank you very much. That says it all, Mr. 
Chairman. [Applause.]
    Chairman Kildee. Thank you very much, Jonathan. Thank you 
very much.
    I am pleased now to introduce our very distinguished second 
panel of witnesses. Dr. Nancy S. Grasmick is Maryland's 
Superintendent of the Schools, where she has served since 1991. 
Prior to that, she was appointed by then Governor Schaefer as a 
Special Secretary for Children, Youth, and Families. Dr. 
Grasmick is widely known for her strong commitment to student 
achievement, teacher quality, and parent involvement. She has 
received numerous awards for her service, including in 2005 
having the State Education Department Building renamed in her 
honor.
    Dr. Oliver Pergams is Conservation Biologist at the 
University of Illinois at Chicago, and Director of the Red Rock 
Institute. Previously he was a Conservation Associate for the 
Chicago Zoological Society. The Red Rock Institute conducts 
life science and social science research concerning people's 
relationships with nature.
    I now yield to Representative Sarbanes to introduce Ms. 
Harris, Dr. Lawrence, and Mr. Davidson. And I know you will 
also want to add to my introduction of Dr. Grasmick.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Yes, we have introduced Dr. Grasmick. If we were to try to 
go through all of the different accomplishments of Dr. 
Grasmick, we would have to change this hearing to this 
afternoon.
    I had the distinct pleasure of working with Dr. Grasmick 
for almost eight years at the State Department of Education as 
a liaison to the Baltimore City school system. I know of her 
many achievements and her leadership.
    She is one of the longest, I think the longest now, 
appointed superintendents in the country. And her dedication to 
children is well-known. On this particular issue with respect 
to environmental education, she is at the forefront. I think we 
will hear about that in her testimony. So it is a real pleasure 
to welcome her here today.
    Karen Harris is the principal at Pot Spring Elementary 
School, which is not quite in my district but I think draws 
students from my district. So I am very pleased to have you 
with us today.
    She serves on the Board of the Maryland Association of 
Environmental and Outdoor Educators. She has been in education 
for 37, almost 40 years now, beginning her career as a 
kindergarten teacher for Baltimore County in 1971.
    In 1990 she was appointed principal of Perry Hall 
Elementary. And Perry Hall was one of nine Bay schools in the 
Chesapeake Bay Foundation Bay School Project during her tenure 
there.
    And for the past four years, she has been serving as the 
principal at Pot Spring Elementary School. And she has served 
as Chair of the Baltimore County Public Schools Principals' 
Academy and served in the superintendent's cabinet. We are 
looking forward to hearing from you today.
    Dr. Lawrence is a very distinguished I would say educator, 
environmentalist, physician, and researcher who has taken on 
the task of bringing all of these kind of disparate elements 
when it comes to the benefits of environmental education and 
sensitivity together, particularly as it relates to public 
health.
    He has founded the Center for a Livable Future at Johns 
Hopkins. And he has reached out in many, many directions to 
make the point about how good it is for us from a public health 
standpoint to be connected to the environment. We are looking 
forward to his testimony today.
    And the last witness is Sean Davidson, Co-founder of 
Maryland Biofuels. We have asked Sean to be here today to 
demonstrate the economic opportunities that lie behind 
environmental sensitivity. And his awareness, as we will hear, 
was raised in high school. And he took that interest, and he 
ran with it from a business standpoint and has now founded this 
company: Maryland Biofuels. You can tell when you listen to his 
testimony and read it that he is somebody who is going to be 
part of a larger engine of economic growth that is based in 
environmental sensitivity and awareness.
    So we are thrilled to have all of the witnesses here today 
and look forward to their testimony, Mr. Chairman.
    Chairman Kildee. Thank you very much.
    I want to welcome all of our witnesses today. For those who 
have not testified before this Subcommittee before, let me 
explain our lighting system and five-minute rule. The five-
minute rule, by the way, applies to the members up here also.
    Everyone, including members, is limited to five minutes of 
presentation or questioning. The green light will be 
illuminated when you begin to speak. When you see the yellow 
light, it means that you have one minute remaining. When you 
see the red light, it means that your time has expired and you 
need to conclude your testimony. There is no ejection chair, 
however. So we will be a little discrete up here.
    Please be certain as you testify to turn on and speak into 
the microphone in front of you and turn it off when you are 
finished.
    We will now hear from our first witness, Dr. Nancy S. 
Grasmick, Superintendent.

STATEMENT OF NANCY S. GRASMICK, SUPERINTENDENT, MARYLAND STATE 
                    DEPARTMENT OF EDUCATION

    Ms. Grasmick. Well, good morning and welcome to you, Mr. 
Chairman. A very special welcome to Congressman Sarbanes and 
certainly all the members of the Committee. I am delighted to 
be here today to share information about Maryland's 
environmental education program. I know that you know that it 
is very vibrant as you have interacted with our teachers and 
our outstanding students this morning.
    Environmental Education has been required in Maryland since 
1990. And it is a major part of the curriculum, and it is a 
part of the regulations of the State Board of Education.
    We have strongly encouraged our systems to provide every 
child with a meaningful watershed experience each year. And the 
environmental education program is certainly fuller than that.
    Our school systems have been enthusiastic about embracing 
this requirement in terms of experiential learning. Today we 
have over 390,000 students in the State of Maryland who 
participate in environmental outdoor experiences each year.
    As was mentioned, we are a part of the Chesapeake Bay 2000 
agreement. And the stewardship of that provision called for a 
meaningful watershed experience for all students before they 
would graduate from high school.
    But we decided that that goal was not rigorous enough. And 
so we set a more rigorous goal in being a part of that 
agreement, and we said that every student had to have a 
meaningful outdoor watershed experience in elementary, in 
middle, and in high school. And so we have again ratcheted that 
up to say every child every single year.
    We are fortunate to have in Maryland an outstanding 
environmental educator, who oversees the implementation of the 
curriculum in each school system. And that is Rebecca Bell, who 
was with us this morning.
    Maryland has integrated the environmental education program 
in our state curriculum. They are integrated. Those concepts 
are integrated throughout the curriculum. And we are evaluating 
students in the environmental education part of this as part of 
our science evaluation in the elementary school, in the middle 
school, and in the high school, to ensure those concepts have 
been taught and mastered by our students.
    We are fortunate in Maryland to have only 24 school 
systems. Nine of those school systems have outdoor 
environmental programs associated with the school system, with 
the jurisdiction. I would like to provide one example. It is 
the North Bay experience.
    This is a program that was developed by an outstanding 
philanthropist in Maryland. We consider it to be so beneficial 
to our student that the state provides $1.5 million per year 
for students to have a week-long environmental experience in 
this facility. It is residential. And its focus is certainly 
for children who are economically disadvantaged to have that 
opportunity.
    The students are prepared for the opportunity to visit this 
residential site with their science and their environmental 
curriculum prior to going to the facility. And it becomes a 
seamless part of the instructional program. There is a deep 
focus on scientific skills and processes.
    When the students leave that week-long experience, there is 
considerable follow-up for them within their classrooms. They 
design and implement an environmental project. And then an 
outside evaluator, independent evaluator, provides data on how 
beneficial this experience has been for the students and what 
are the adjustments and improvements necessary.
    During their residential week, they also use the 
environmental experience to integrate with sort of analogies of 
life situations. So as they learn about things like invasive 
species during the day, in the evening they identify and 
discuss invasive things that might be occurring in their own 
lives. And so they use the environment to expand their 
repertoire of how this impacts their lives and what are the 
knowledges and skills they need to deal with those situations.
    I was very fortunate to be selected by the National Academy 
of Sciences to serve on Rising Above the Gathering Storm. And 
so I am deeply concerned about America's competitiveness in the 
stem areas: the science, technology, engineering, and 
mathematics. Our environmental education programs are 
motivating and engaging for our students at a very early age to 
consider and nurture students' interests in these STEM areas.
    Recently in conjunction with a conference held with Johns 
Hopkins University, we had a panel of students, high school 
students, who are choosing as a career path STEM areas. When 
asked what motivated them, it was precisely these environmental 
experiences that they had as early as elementary school that 
they built on as they matriculated through their school 
experiences.
    I think it is time to take environmental education to a 
whole new level, to move beyond just awareness and knowledge to 
really action and synthesis. So our slogan is ``Every Child, 
Every Year and, Actually, Every Day.''
    Thank you very much.
    I have a handout for you.
    Chairman Kildee. Very good.
    Ms. Grasmick. We have just published a book called ``Feet 
Wet, Hands Dirty.'' And I would like to provide this for the 
Committee.
    [The information offered by Ms. Grasmick may be accessed at 
the following Internet address:]

    http://www.marylandpublicschools.org/MSDE/programs/environment/

                                 ______
                                 
    Ms. Grasmick. Thank you so much.
    [The testimony of Ms. Grasmick follows:]

      Prepared Statement of Dr. Nancy S. Grasmick, Maryland State 
                       Superintendent of Schools

    Good Morning Chairman Kildee, Congressman Sarbanes and members of 
the Subcommittee. Welcome to Maryland! I am delighted to share with you 
today information regarding the vibrant and robust Environmental 
Education program we have in Maryland. You have observed a small piece 
of that this morning with some of our wonderful students.
Background
    In 1990, the Maryland State Board of Education adopted a State 
Regulation (COMAR13A.04.17) requiring the teaching of Environmental 
Education in Maryland schools. The Regulation outlines the major 
concepts that are to be included in the curriculum and it promotes a 
focus on investigating environmental issues. The Regulation does not 
mandate an outdoor experience because, in Maryland, and I am sure in 
most of your states, decisions relating to specific instructional 
activities fall within the purview of local Boards of Education. 
However, in our role as the state education agency, we strongly 
encourage our school systems to provide every child with a meaningful 
watershed experience each year. Our school systems have responded and 
they enthusiastically embrace the incorporation of outdoor experiential 
learning as an integral part of the curriculum. Students benefit from 
learning about their local environment as well as environmental issues 
at the state, regional, national and global levels.
Voluntary State Curriculum
    The Maryland State Department of Education (MSDE) has developed a 
Voluntary State Curriculum that defines what students should know and 
be able to do at each grade level. The science curriculum was developed 
by professional science educators, is based on national science 
standards and was evaluated by Achieve, Inc. Environmental concepts are 
integrated throughout the Maryland Voluntary State Curriculum in 
environmental science, life and earth systems science, economics, 
geography, and public policy and government. The language in the 
Environmental Science learning indicators and objectives are adopted 
from the North American Environmental Education Association. Our 24 
school systems have adopted the Maryland Voluntary State Curriculum. 
Additionally, as required by No Child Left Behind, on a statewide 
basis, science is assessed once in elementary school, once in middle 
school and once in high school.
    Further, MSDE provides curriculum review and support for many 
environmental organizations from all over the state in order to help 
them align their activities with the appropriate curriculum topic at 
the appropriate grade level. More importantly, the school systems have 
engaged these environmental organizations to provide their professional 
expertise to enhance the existing school system curriculum. This 
approach has fostered thriving partnerships between school systems and 
their environmental education partners and organizations.
Outdoor Environmental Experiential Learning
    Currently, 390,000 Maryland students (45% of our public school 
population) participate in outdoor environmental learning experiences 
each year. Some Maryland school systems have been offering outdoor 
environmental education experiences for almost 40 years.
    The Stewardship provision of the Chesapeake Bay 2000 Agreement 
calls for a ``meaningful watershed experience for all students before 
they graduate from high school.'' State Education Agencies in the Bay 
watershed are required to report student participation numbers to the 
Chesapeake Bay Program as a measure of their progress towards the 
fulfillment of the Stewardship Provision. The Chesapeake Bay Program 
calculated a participation rate for Maryland of 96%. A separate 
independent poll of the student body conducted by a student at the 
University of Maryland College Park campus, also found that 96% of the 
graduates from Maryland schools reported participating in such an 
experience.
    Because Maryland schools were already close to the Bay 2000 goal 
when the Agreement was signed, lacking only a full experience in 
Baltimore City at the time, we set a more rigorous goal for our school 
systems--that they provide a meaningful watershed experience at least 
once during the elementary school years, once during the middle school 
years, and once during the high school years. With Baltimore City's 
implementation of an experience for all students in 2006, we are once 
again approaching our goal. Therefore, we have recently ratcheted up 
our goal once again--to ``Every Child, Every Year''. While ambitious, 
this goal has become the rallying cry for Maryland's environmental 
education coordinators, teachers and providers.
    Maryland students currently participate in outdoor environmental 
learning experiences in a variety of ways. :
    <bullet> as part of the regular science curriculum
    <bullet> as part of Maryland's Student Service Learning Program. 
Maryland has received a 3-year federal Learn and Serve grant, which 
funds community-based environmental experiences for our students. This 
program has provided additional grade level experiences in 17 school 
systems.
Providers of Outdoor Environmental Experiential Learning
    <bullet> Nine (9) of Maryland's 24 school systems fund and operate 
their own outdoor environmental education centers, sponsoring day trips 
and residential experiences. School systems that do not have such a 
facility, partner with state and federal parks, local community groups 
and non-profit providers to use their sites for similar activities.
    <bullet> Maryland is fortunate in that we have a large number of 
informal education institutions that provide opportunities for 
environmental education, including outdoor experiences. The State 
provides funding to many of these institutions through the State-Aided 
Educational Institution Program, so that they may offer free services 
and/or reduced-price entrance/participation fees to Maryland students. 
This program provides funding for 50,000 students to participate in 
programs at organizations such as the Maryland Science Center, the 
National Aquarium in Baltimore, the Maryland Zoo, and the Chesapeake 
Bay Foundation.
    <bullet> The Maryland General Assembly generously appropriated 
$1.55 million to fund experiences for sixth graders from across the 
state at the acclaimed NorthBay program. This nationally recognized 
program provides a week long residential environmental experience for 
sixth graders in high need areas. The program is followed by a 
stewardship project at the school. The NorthBay program has been 
recognized as the first program to model proper implementation of the 
issues-based instructional model.
The North Bay Experience
    As an example of the many programs we have across the state, I 
would like to tell you about the NorthBay program. NorthBay is an 
environmental education center located in Cecil County in northeastern 
Maryland. The program provides a week long residential experience for 
high need students. For many students, it is the first time they travel 
away from home.
    The NorthBay curriculum, developed with professional educators, 
provides a systematic, meaningful watershed experience for sixth 
graders from high need school districts. All sixth graders from 
Baltimore City, Somerset, Allegany, Caroline, Garrett, and Cecil 
counties attend the week long residential program. Title I students 
from other school systems attend as well.
    The curriculum the students experience is the Grade 6 Voluntary 
State Curriculum in Science, so teachers do not have to worry about 
time away from their classroom. NorthBay is the classroom. Life science 
and environmental science goals are the major focus, however the 
experience also integrates earth sciences, chemistry, reading, writing, 
and health objectives where appropriate. Scientific skills and 
processes form the framework of the experience, and the content pieces 
can be changed to address the issues, interests, and needs of the 
particular student group. The visit to NorthBay is a seamless part of 
the instructional year.
    Students begin their experience in school by identifying and 
listing school and community issues. They take their issues list to 
NorthBay.
    At NorthBay, daily instruction is based on a particular skill. For 
example, on Day 1, students, no matter what activity they are engaged 
in, discuss the qualities of a good scientific question. On subsequent 
days, they discuss data collection methods, hypothesizing, using 
technology to collect data, data analysis and interpretation, decision- 
problem-solving, and communication of results.
    Back at school, students review the issues they identified before 
their experience, and then choose a problem to address. They apply the 
scientific skills learned at NorthBay to design and implement a school 
or community project. Technical support for community and school 
projects will come from partners within the schools' district.
    Students can monitor the data collection throughout the year from 
their home school to provide follow-up experiences throughout the year. 
Students learn that they can influence the quality, health, and safety 
of their own home environment, have the confidence to act, and have the 
knowledge and skills to do so.
    A major focus of the program is on character development and 
leadership, using the students' environmental experiences as analogies 
of their life situations. For example, students may learn about 
invasive species in their environment, but also reflect on the 
``invasives'' in their own lives.
Research on Student Achievement
    A longitudinal study being conducted by Dr. Marc Stern, Assistant 
Professor, College of Natural Resources, Virginia Tech uses the 
NorthBay site to research long-term effects of environmental education 
experiences on student achievement, preliminary. The study evaluates 
program effectiveness in three major areas: character development and 
leadership, environmental responsibility, and academic performance. Dr. 
Stern submitted the following summary of the findings to date.
    ``At the outset of our program, NorthBay contracted with an 
experienced external evaluation team from Yale, Virginia Tech, and 
Clemson to measure how well we would achieve our goals and to help us 
continually improve our programs to maximize the positive impacts we 
could have on visiting students and teachers. The first year's 
evaluation report (NorthBay Evaluation: Results from 2006-2007 School 
Year; Robert B. Powell, Marc J. Stern, and Nicole M. Ardoin; October 
2007) investigates our 3 primary goals: Character Development & 
Leadership, Environmental Responsibility, and Academic Performance & 
School Culture. The evaluation system looks at short-term and longer-
term impacts of our non-formal residential educational programs, which 
take place during the school year, upon these goals.
    The evaluation of the first year of the program clearly indicates 
statistically significant short-term achievements within all three 
categories of outcomes. Students exhibited significantly higher scores 
on survey elements associated with enhanced character development and 
leadership, environmental responsibility, and academic performance 
immediately following their NorthBay experiences. Surveys and 
interviews with teachers confirmed these gains and revealed additional 
positive impacts upon the educators that attend our programs, including 
better relationships with their students and the acquisition of new 
techniques for better motivating their students.
    Follow-up surveys conducted with students three months after their 
visits to NorthBay indicated that statistically significant gains in 
character development and leadership remained, while most gains related 
to environmental responsibility and academic performance faded over 
time. Thus, the evaluation revealed the importance of implementing 
effective follow-on programs to enhance the positive impacts of our 
program. We've used the evaluation results to develop our follow on 
program, which we have been actively implementing in over 25 schools 
throughout the 2007-2008 year. We've also used the survey and interview 
results to improve specific aspects of our program on-site, ranging 
from specific educational lessons to the logistical execution of our 
programs.
    The evaluation system is an ongoing program designed to continually 
improve our performance. We regularly use the results to adapt our 
programs. We'll also be systematically evaluating the quality of our 
follow on programs in an effort to ensure that it, along with all of 
our programming, is the best that it can be''.
    This research indicates that students need to engage in multiple 
experiences in order to develop a stewardship ethic. The study is also 
significant in that it uses data to improve, not merely justify, 
environmental education program
    A second study indicates that students not only need multiple 
experiences; they also need a variety of experiences.
    Dr. Tom Marcinkowski, Associate Professor of Science and Math 
Education, Florida Institute of Technology, a nationally recognized 
researcher in environmental literacy and behavior, states that ``We 
must talk about the different kinds of curriculum content and 
organization, program organization, and modes of teaching * * * because 
different kinds of environmental education programs have different 
kinds of effects on learning. A 1997 review of research pertaining to 
environmental literacy by Volk and McBeth for EPA clearly indicates 
that different kinds of programming resulted in effects on different 
environmental literacy outcomes. For example, Hungerford et al.'s 
issue-and-action instruction and action research affect problem-
solving/issues skills, but not ecological knowledge or environmental 
sensitivity. Field instruction at schools sites, nature centers, and 
camps can influence ecological knowledge and environmental sensitivity 
but have little effect on issue and action skills''.
    In light of these studies and others, it is clear that students 
need to engage in a variety of activities over a period of many years.
Global Competitiveness
    There are larger issues facing us in science education as reflected 
in the report Rising Above the Gathering Storm. There is concern that 
the United States is not preparing a sufficient number of teachers and 
students in science, technology, engineering and mathematics, and this 
shortage will affect the United State's ability to compete in an 
increasingly competitive global economy. Environmental education 
programs are motivating and engaging for both teachers and students and 
can be an important part of guiding students to these careers.
    In January 2007, Governor Martin O'Malley convened the Base 
Realignment and Closure (BRAC) Subcabinet, with Lt. Governor Anthony 
Brown as chair, to coordinate planning for the 25,000 new households 
and 60,000 new employment opportunities that will accompany the 
transformation and realignment of federal military bases in Maryland.
    The Maryland State Department of Education is working diligently to 
ensure our students are prepared for these challenging jobs.
    In light of these significant initiatives, it is time to take 
Environmental Education to a new level. Now is the time for us to move 
beyond awareness and knowledge to action and synthesis.
    Today, our focus has been on Outdoor Experiential Learning. But, 
there is much more happening in our local school systems related to 
Environmental Education. Environmental education can contribute to 
addressing the challenges we face both culturally and academically.
    We have an extremely effective program in our State. We have more 
work to do.
    Every Child, Every Year!
                                 ______
                                 
    Chairman Kildee. Thank you very much, Doctor, for your 
testimony.
    Ms. Harris?

  STATEMENT OF KAREN HARRIS, PRINCIPAL, POT SPRING ELEMENTARY 
                             SCHOOL

    Ms. Harris. Thank you, Chairman Kildee and Representative 
Sarbanes, for holding this hearing about environmental 
education.
    For the last four years, I have had the privilege of 
serving as the principal of Pot Spring Elementary School in 
Baltimore County. What I do there wouldn't be possible without 
the support of my superintendent and his vision for 
environmental education and his inclusion of environmental 
education units in our curriculum and his constant support of 
what I try to do with my children.
    Four years ago I did begin serving as the principal at Pot 
Spring. It was my second appointment as a principal in 
Baltimore County. And when I arrived at the school--it is a 
school of great diversity. We have 580 students in pre-K to 5. 
They come from 28 countries and speak 32 languages. We have 
children who come from homes of great affluence, and we also 
have a large majority of our students who come from government-
subsidized housing and everything in between.
    We have very supportive parents. We also have families 
because they work several jobs who don't have the opportunity 
to be as supportive at home as we would wish that they are, but 
they still send us great children.
    Our diversity is what makes our school such a rich school, 
but it also can lead to some issues as helping all children be 
as successful as we would want them to be.
    When I took over Pot Spring, our MSA scores had been 
relatively flat. The instruction in the school was very 
traditional in the fact that most children just sat and did 
worksheets, read from books. The teachers are wonderful. They 
are still wonderful. But the instruction was very unengaging to 
children.
    The children who had been taught to understand school were 
very successful. Our students that didn't have that support 
were not as successful. So our boys underachieved all of our 
girls in most of our subtests on MSA, our Maryland State 
Assessment and as well our minority populations also were 
under-performing.
    I knew I had to make some changes when I took over the 
school. And I began by changing the culture in the building. I 
believe strongly that if you want to change teaching and you 
want to change learning, you have to help your teachers and you 
have to support your teachers. So I began by looking at how I 
could bring some very rich and very powerful professional 
development to my staff.
    We began integrating the use of the environment as a 
context for learning all subjects. It is not a stand-alone. It 
needed to be integrated into all subjects.
    One of the ways I did that was by bringing in very good 
staff development to help improve the teaching, improve the 
quality of the work that the students are doing, the learning, 
and also improve student achievement. And that is the results. 
I knew I had to integrate all three of those things as well as 
what we were doing in the school.
    All of the staff received extensive training in how to 
integrate the use of the environment in everything that they 
were doing. That means all of the staff from the school nurse 
all the way through the phys. ed. teacher and all the classroom 
teachers, the guidance counselor. It has to be a whole school 
focus in order for it to be successful.
    They are encouraged to expand their teaching and learning 
by what we call learning outside the walls. It is not unusual 
for me to sit in my office and see students doing math, 
measuring the circumference of a tree outside of my office, or 
to have children doing perimeters by taking a measuring tool to 
actually identify the perimeter of a garden that they are 
planning to do.
    Children are encouraged to be writing descriptive phrases 
by going outside into one of our outside learning areas and 
sitting in those environments and actually writing, much more 
engaging than putting an apple on a table and say, ``Describe 
the apple.''
    The students apply their skills of writing to persuade by 
writing letters to me, asking permission for them to be able to 
plant trees outside of their classroom so that they have shade 
and it will cut down on some of the use of the energy in the 
building. What an authentic purpose for learning.
    The students also write the grants to the Chesapeake Bay 
Trust, asking for funding for the projects that they have 
identified themselves as issues on our school grounds. The 
children have done schoolyard report cards to find out, are 
there areas of our school grounds that need improvement, are 
there areas inside our school? And children as young as first 
graders, kindergartners are working with their teachers to 
write grants to the Chesapeake Bay Trust, asking for funding, 
another authentic application of their learning where they have 
to write anyway. Why not write a grant to important people? It 
raises the level of what that writing is going to look like.
    During lunchtime you can find children in the back of our 
building creating reef balls. They are artificial oyster reef 
balls. They are made out of concrete. They work with teachers 
to create these. In the spring, they are lowered into the 
Chesapeake Bay on the Memorial Stadium Oyster Reef in order to 
help improve the Bay, but it is an engaging math activity. It 
is team building. Again, it is applying. They are teaching and 
learning in authentic ways.
    Our first graders, you can go down there. They are learning 
to count by tens by counting bottle caps that have been 
recycled in our building. They are putting them in bunches of 
tens. How many tens make 100? How many hundreds make 1,000? 
They could easily be counting with just chips, but we are 
recycling. So why not use what we are doing to teach their math 
lessons?
    The teachers purposely involve the students in exploring 
animals and their habitats, both in and outside of their 
classroom. There was a natural extension for one of our 
Baltimore County STEM units in second grade. It is a unit on 
animals. And so one of our groups of teachers became very 
passionate about bluebirds and the plight of bluebirds when 
they attended the MAEOE conference.
    They came back with their enthusiasm about what they had 
learned and tried to encourage some children to also learn 
about this. The students decided to create a bluebird trial, 
with some encouragement from those teachers, to attract 
bluebirds to our school grounds.
    Last spring, we had a whole day outside, 580 children 
outside, for the entire day doing environmental activities. One 
of the activities was building bluebird houses. In the fall, 
those bluebird houses were put up around our school grounds.
    Each class has been assigned to a bluebird house. They 
monitor what is going on inside there. They collect the data. 
They write about it. They write announcements for our school to 
hear what is happening with their bluebirds. We do have some 
bluebirds who have landed at Pot Spring.
    The teachers have been impressed by the quality of the work 
that the students are doing, partially because they are writing 
for authentic purposes. They are learning for authentic 
purposes. They see reasons for what they need to know.
    Why do you need to know perimeter? Well, if you are 
planting a garden and you need to know how many board feet of 
wood to put around it, you need to know perimeter. Why do you 
need to know cubic feet? Well, if you have to find out how much 
mulch you need for this garden, you need to know cubic feet. It 
makes their leaning meaningful.
    Two years ago we began as a school exploring the 
qualifications to become a Maryland Green School. It was a 
natural outgrowth for what we were already doing. And the 
program was chosen for several reasons. It seemed like it would 
be actively engaging for the teachers and the students. There 
were opportunities for intensive staff development. The project 
could be integrated into the curriculum we were already doing 
at all grade levels. There wasn't a cost. That was a good 
thing. And the program would help our students become stewards 
of the environment.
    We really liked the idea. The teachers embraced it. The 
students embraced it. Yesterday we found out we were going to 
be named a Maryland Green School. Woo-hoo! [Applause.]
    So we were very excited.
    Over the past four years at Pot Spring, I have witnessed 
the school's climate and culture change. In addition, there has 
been improvement in academic performance. And that is the 
reason we are in school to begin with.
    Throughout the building, students are collaborating with 
their classmates. They are applying teacher feedback to the 
work that they are doing. They are investigating real-life 
problems in order to make our school and our community and our 
school environment a healthier place. Students are learning for 
a purpose, and they know what that purpose is.
    Our boys have made great improvements by having the 
opportunity to learn with hands-on activities. School is not 
traditionally made for boys. In addition, we have seen a steady 
improvement on our MSA scores for all of our subgroups. In 
fact, we have received recognition by the state for continued 
and sustained improvement on MSA.
    My office referrals have also decreased. And so have our 
out-of-school suspensions. My theory is that the children would 
much rather be in the outdoors or in their classrooms than 
sitting in my office.
    Our integration of environmental education has been 
successful for a lot of reasons. I have involved all the 
stakeholders in the decision-making process along the way. In 
addition, I have encouraged the staff to teach differently, and 
I have supported their efforts in teaching this way.
    The staff have participated in intensive and ongoing 
professional development on how to create integrated lessons. 
Our master schedule provides many opportunities for them to 
work together. Not only do the teachers need time to work 
together and learn from each other, but they also need time to 
learn and work with experts. So that is provided for them as 
well.
    Integrating the use of the environment into all subjects 
has helped both our students and our teachers make meaningful 
connections to what they are doing.
    My favorite quote comes from a little third grade boy 
sitting in the middle of a garden writing descriptive phrases. 
He had not always been an excited learner. And he turned to me, 
and he said, ``Mrs. Harris, this is like recess with 
learning.'' I think that wraps it up.
    Thank you. [Applause.]
    [The testimony of Ms. Harris follows:]

 Prepared Statement of Karen Harris, Principal, Pot Spring Elementary 
                                 School

    Thank you, Chairman Kildee and Representative Sarbanes for holding 
this hearing about environmental education. I am Karen Harris and I am 
the principal of Pot Spring Elementary School in Baltimore County.
    It's been four years since I began my tenure as the principal at 
Pot Spring Elementary. Pot Spring is a diverse school in the central 
area of Baltimore County Maryland. We have over 570 students in grades 
Pre-K-5 who come from over 28 countries speaking 32 different 
languages. We have children from a wide range of economic backgrounds 
as well. Many of our students come from affluent families, however we 
also have a large population that come from government subsidized 
housing. The diversity of our school is one of the qualities that make 
it a great school but it is also one of the challenges in creating a 
high performing school for all students.
    When I took over the school Pot Spring's Maryland School Assessment 
(MSA) scores had been relatively flat for the three preceding years. 
The boys underperformed the girls on all subtests of MSA. The minority 
population also underperformed the non-minority students. Four years 
ago the instruction was very traditional. When I talk about traditional 
teaching, I mean, the majority of work was done through reading 
textbooks and completing worksheets with teacher directed lessons. 
There was very little engaging, authentic or differentiated 
instruction. I knew I had to make some changes so I began by changing 
the culture. I also knew from experience at a previous school that we 
would be most successful with a school-wide instructional focus.
    We began integrating the use of the environment as a context for 
learning all subjects several years ago as a way to create more 
engaging, rigorous and authentic lessons for our students, especially 
our most reluctant learners. My goal was to improve staff development 
(the teaching), improve the quality of work we ask the students to do 
(the learning), and improve student achievement (the results). All of 
the staff have received extensive training on how to incorporate the 
use of the outdoors to teach math, reading, science, art, language 
arts, etc. over the last three years. They are encouraged to expand 
their classroom by engaging the students in learning ``Outside the 
Walls''. It is not unusual to see students applying their measurement 
skills to determine the area needed for a garden. Students can be seen 
writing descriptive essays at our outdoor learning classroom. Students 
apply their skills of writing to persuade by writing Baltimore County 
officials for permission to plant trees outside their classroom in 
order to have some shade on a sunny day. The students also write grants 
to the Chesapeake Bay Trust asking for funding for their environmental 
projects. During lunch time our fifth grade ``Bay Ambassadors'' can be 
found behind the school creating Reef Balls that will be lowered into 
the Chesapeake Bay to provide an artificial oyster reef. Some of our 
youngest students learn to count by tens as they group recycled bottle 
caps into packs of 100 for our family environmental night. Another 
example of how integrating environmental education into all subjects 
has changed our teaching and learning was through a second grade study 
of animals and their habitats. The teachers purposely involved the 
students in exploring animals and their habitats both in and outside of 
their classroom. This was a natural extension to the BCPS STEM unit for 
second grade. One group of teachers became passionate about the plight 
of the Bluebird after attending the MAEOE conference and began to 
inspire the students to discover that our schoolyard was not attracting 
many native Maryland birds. The students decided to create a bluebird 
trail to attract bluebirds, which are native to the area. During 
science they studied bluebird habitats and in social studies they 
studied neighborhoods and communities. As part of language arts 
students wrote announcements that were read to the entire school about 
their project. Last spring at our Earth Day, Every Day celebration, our 
entire school worked to build Bluebird nesting boxes among other 
environmental activities. The boxes were installed around our school 
grounds this year. Each grade has been assigned a nesting box to 
monitor, collect the data and write about their findings. The teachers 
have been impressed with the quality of the work the students are 
producing. The students are motivated and see meaning to their 
learning--characteristics of high quality work. They are applying 
reading, writing and math skills to an authentic, real life project 
that they feel will improve our local environment. We are fortunate in 
Baltimore County to have curriculum already in place that makes 
integrating environmental education a natural fit. At Pot Spring we 
view it as how we do what we do, not an addition to our already full 
instructional plate.
    Two years ago our school began exploring the qualifications 
necessary to become a Maryland Green School as a natural outgrowth of 
our integration of environmental education. This program was chosen for 
several reasons: it seemed like it would actively engage the teachers 
and the students in the learning process; there were opportunities for 
staff development that would benefit all teachers no matter what grade 
or subject they taught; the project could be integrated into the BCPS 
curriculum at all grade levels; a variety of other schools were 
involved around the state creating a network for the teachers; there 
wasn't a cost to the school; the program would help our students become 
stewards for the environment; and we liked the idea of focusing on 
environmental science and thought most students would as well. We have 
documented all of the environmental projects our students have done for 
the past two years. Our hope is that we will be awarded Green School 
status this year.
    Over the past four years at Pot Spring I have witnessed the 
school's climate and culture change. In addition there have been 
improvements in academic performance, behavior, and student 
achievement. Throughout the building students are collaborating with 
their classmates, applying teacher feedback to their writing and 
investigating real life problems in order to make our school and 
community environment a healthier place. Students are learning with a 
purpose and they know what that purpose is.
    Our boys have made improvements by having the opportunity to learn 
through hands-on engaging work. In addition we have seen steady 
improvement in MSA scores for all of our sub groups. Pot Spring has 
received recognition from both the county and the state for continued 
and sustained improvement on MSA in 3rd-5th grade. Our office referrals 
have decreased and so have our out of school suspensions. It appears 
that students would much rather be in their classrooms than sitting in 
the office. Classroom instruction is so much more engaging and 
rigorous.
    Our integration of environmental education has been successful for 
a variety of reasons. I have involved all stakeholders in the decision 
making process along the way. In addition, I have encouraged my staff 
to teach differently and supported their efforts to change. The staff 
have participated in intensive and ongoing professional development on 
how to create integrated lessons. Teams of teachers have been 
encouraged to work together to plan integrated lessons. Our master 
schedule provides daily opportunities for each grade level to 
collaborate. Not only do teachers need time to work together and learn 
from each other, but they also need time to work with and learn from 
``experts'' so opportunities have been provided for experienced experts 
in environmental education to help them on their journey.
    Integrating the use of environmental science into all subjects has 
helped both our students and teachers make meaningful connections to 
their learning. When students understand a real life purpose and 
application for their learning, they tend to put more effort into their 
work.
                                 ______
                                 
    Chairman Kildee. I have served in the Congress for 32 years 
now. And I have traveled throughout the country, visited 
hundreds of schools. And when I find a truly excellent school, 
the one constant I find in those truly excellent schools is a 
strong creative, capable, and caring principal. And you 
illustrate that very well. [Applause.]
    Dr. Pergams?

STATEMENT OF OLIVER PERGAMS, CONSERVATION BIOLOGIST, DEPARTMENT 
   OF BIOLOGICAL SCIENCES, UNIVERSITY OF ILLINOIS AT CHICAGO

    Dr. Pergams. Chairman Kildee, Congressman Sarbanes, 
honorable members of the Subcommittee, it is an honor for me to 
appear before you today to share our research on the declining 
percentage of Americans visiting nature.
    I will share my thoughts on what this trend means for our 
children's health and for their environmental attitude as 
adults. I will emphasize research, showing the most effective 
way to instill an appreciation for nature is through hands-on 
nature experiences, incorporated into elementary environmental 
education. Lastly, I will speak briefly on resulting economic 
benefits. First I will speak on the declining percentage of 
nature-based recreation.
    Our research published February 2008 shows that people in 
the U.S. and other developed nations are spending far less time 
in nature than ever before. With colleague Dr. Patricia 
Zaradic, I tested 16 measures of nature participation related 
to visitation of various types of public lands in the U.S. and 
other countries; number of various types of game licenses 
issued; and amount of time spent camping, backpacking, or 
hiking.
    The U.S. activities with the greatest participation were 
visits to U.S. state parks, U.S. national parks, and U.S. 
national forests. All three visitation rates are in downtrends 
and are declining on average between 1 percent and 3 percent 
per year.
    Now, during this testimony, I am going to give you three 
take-home messages. And this is the first. The longest and most 
complete of the 14 U.S. nature recreation data sets show that 
ongoing declines in nature participation, typically began 
between 1981 and 1991, are losing on average over one percent 
per year and so far have lost between 18 and 25 percent to the 
present date. There is no longer any real doubt that the 
percentage of people involved in nature-based recreation is in 
long-term decline.
    Next I would like to talk about the benefits of nature-
based environmental education. The first benefit I would like 
to talk about is environmental attitude. Our 2007 review of 
related research suggests that direct contact with nature, 
especially as children, is the most critical influence on later 
attitude toward the environment.
    Family vacations and time with family and other mentors 
outdoors are a major influence on later environmental attitude. 
Environmental education is also important but actually to a 
lesser degree than direct actual experiences of natural areas.
    It is ideal when exposure to nature occurs in the presence 
of a knowledgeable mentor or teacher. Such a teacher answers 
questions and helps to convert the rich experience of nature to 
knowledge and increased curiosity in the student. Direct 
contact with wild nature, such as hiking, playing in the woods, 
camping, hunting, or fishing, and, to a lesser extent, 
domesticated nature, by which I mean things such as gardening 
or pet care, before age 11 has been shown to be particularly 
important in shaping environmental attitudes and behaviors in 
adulthood.
    This research is also very important to today's 
proceedings. It means that--and this is the second take-home 
message--while classroom environmental education of children is 
important and absolutely necessary, incorporating as many 
hands-on nature experiences as possible is what is really 
crucial. These experiences should be with wild nature if at all 
possible and with domestic nature as a distant second choice.
    Next I would like to talk about the effects of nature, or 
lack of nature on children's development. Three ways of 
experiencing nature have been described. Direct experience is 
undirected play in nature; for example, in a forest, 
neighborhood park, backyard, or even a vacant lot. Indirect 
experience includes thing like zoos, nature centers, aquariums, 
and museums. Vicarious experience is without any physical 
contact with nature; for example, art, photographs, movies, 
videos, and webcams.
    Direct experience with nature plays the most significant 
role in children's cognitive and evaluative development. Direct 
experience of nature offers a multitude of continuously 
changing sights, sounds, smells, and touches that promote a 
wide range of adaptive and problem-solving responses, 
alertness, and attention.
    The more structured indirect experiences of nature do not 
require the same level of spontaneous engagement and do not 
have the same developmental benefits. The least engaging and 
least spontaneous type of nature contact is vicarious 
experience through electronic media.
    This research is also very important to today's 
proceedings. It means that--and here is the last take-home 
message--the nature experiences incorporated should be direct 
experiences if at all possible; with indirect experiences 
second choice; and vicarious experiences, ``electronic 
experiences,'' a very distant third choice indeed. The presence 
of a teacher or mentor in any case is still necessary.
    Just as exposure to nature has positive effects, lack of 
exposure has negative effects. Children under 13 living in the 
United States spend on average only about half an hour of 
unstructured time outdoors each week.
    Research suggests that this lack of nature exposure is 
leading to many developmental problems. For example, five-year-
olds limited in playing outdoors exhibited poorer social, 
behavioral, and motor skills and had fewer playmates than 
children who played more outdoors.
    Children attending a day care center surrounded by 
orchards, pastures, and woodlands and where the children went 
outdoors every day, regardless of the weather, had better motor 
coordination and greater attention capacity than did children 
who attended an urban day care center surrounded by tall 
buildings.
    Children who moved to housing with more nature nearby 
tended to have higher levels of cognitive functioning and focus 
than children who moved to housing with less nature. Activities 
conducted in natural green settings tend to lower the symptoms 
of children with ADD, ADHD, and raise self-esteem.
    Lastly, I would like to touch upon the economic benefits of 
nature-based environmental education. I should probably mention 
that science is a second career for me. My first career was in 
the financial markets and beginning as a bank foreign exchange 
trader and ending as owner of a commodities trading firm.
    We have seen that elementary environmental education and 
hands-on nature experiences for children will increase interest 
in nature and affirm environmental attitudes. This, in turn, 
will have enormous and beneficial impacts on our use of non-
renewable resources and on our economy.
    The reduction in health costs relating to increased outdoor 
exercise will be substantial. Increased interest in nature 
would raise attendance at our great public lands and reverse 
the negative trend in U.S. nature-based tourism in general.
    In addition, we must consider that a downward trend in the 
quality of science education has emerged as a national crisis. 
The percentage of graduate students in science and engineering 
has declined steadily since 1993. Meanwhile, imports of science 
and engineering brain power are up almost 40 percent. We must 
reverse this trend in order to remain competitive in a global 
economy.
    In closing, I recognize that implementing nature-based 
environmental education will not be easy and will take strong 
political will and courageous leadership, but I firmly believe 
that our efforts if we succeed will pay rich dividends for our 
nation's future generations.
    Thank you again for this opportunity to testify. I welcome 
your questions later on.
    [The testimony of Dr. Pergams follows:]

  Prepared Statement of Dr. Oliver R. W. Pergams, Director, Red Rock 
  Institute, Inc.; Conservation Biologist, University of Illinois at 
                                Chicago

    Chairman Kildee, Congressman Sarbanes, honorable members of the 
Subcommittee, and Governor O Malley: my name is Dr. Oliver Pergams. I 
am a Director of Red Rock Institute, a scientific research foundation, 
and am a conservation biologist at the University of Illinois at 
Chicago. Science is a second career for me: my first career was in the 
financial markets, beginning as a bank foreign exchange trader and 
ending as owner of a commodities trading company. I hope therefore to 
bring a little broader perspective.
    It is an honor for me to appear before you today to share our 
research on the declining percentage of Americans visiting nature. I 
will share my thoughts on what this trend means for our children's 
health, and for their environmental attitude as adults. I will 
emphasize research showing the most effective way to instill an 
appreciation for nature is through hands-on nature experiences, 
incorporated into elementary environmental education. Lastly, I will 
speak briefly on resulting economic benefits.
I. Declining Percentage of Nature-Based Recreation
    Our research published Feb. 2008 shows that people in the US and 
other developed nations are spending far less time in nature than ever 
before.\1\ This research is included as an attachment to my written 
testimony. With colleague Dr. Patricia Zaradic, I tested 16 measures of 
nature participation related to visitation of various types of public 
lands in the US and other countries; number of various types of game 
licenses issued; and amount of time spent camping, backpacking, or 
hiking. The US activities with the greatest participation were visits 
to US State Parks, US National Parks, and US National Forests. All 
three visitation rates are in downtrends and are declining on average 
between 1% and 3% per year.
    The longest and most complete of the 14 US nature recreation 
datasets show that ongoing declines in nature participation typically 
began between 1981 and 1991, are losing on average over 1% per year, 
and have lost between 18% and 25% to date. There is no longer any real 
doubt that the percentage of people involved in most nature-based 
recreation is in long-term decline.
II. Benefits of Nature-Based Environmental Education
    The first benefit I'd like to talk about is environmental attitude. 
Our 2007 review of related research\2\ suggests that direct contact 
with nature, especially as children, is the most critical influence on 
later attitude toward the environment.\3,4\ Our article is included as 
a second attachment. Family vacations and time with family and other 
mentors outdoors are a major influence on later environmental attitude. 
Environmental education is also important, but to a lesser degree than 
direct actual experience of natural areas.\4,5\ It is ideal is when 
exposure to nature occurs in the presence of a knowledgeable mentor or 
teacher. Such a teacher answers questions and helps to convert the rich 
experience of nature to knowledge and increased curiosity in the 
student. Direct contact with wild nature (such as hiking, playing in 
the woods, camping, hunting, or fishing), and (to a lesser extent) 
domesticated nature (such as gardening or pet care), before age 11, has 
been shown to be particularly important in shaping environmental 
attitudes and behaviors in adulthood.\4\ This research is very 
important to today's proceedings: it means that:
    While classroom environmental education of children is important 
and absolutely necessary, incorporating as many hands-on nature 
experiences as possible is crucial. These experiences should be with 
wild nature if at all possible, and with domestic nature as second 
choice.
    Next I'd like to talk about the effects of nature, or lack of 
nature, on children's development. Three ways of experiencing nature 
have been described.\6\ Direct experience is undirected play in nature, 
for example in a forest, neighborhood park, backyard, or even a vacant 
lot. Indirect experience includes zoos, nature centers, aquariums, and 
museums. Vicarious experience is without actual physical contact with 
nature; for example art, photographs, videos, and webcams.
    Direct experience with nature plays the most significant role in 
children's cognitive and evaluative development. Direct experience of 
nature offers a multitude of continuously changing sights, sounds, 
smells, and touches that promote a wide range of adaptive and problem 
solving responses, alertness, and attention. The more structured, 
indirect experiences of nature do not require the same level of 
spontaneous engagement and do not have the same developmental benefits. 
The least engaging and spontaneous type of nature contact is vicarious 
experience through electronic media. This research is also very 
important to today's proceedings: it means that:
    The nature experiences incorporated should be direct experiences if 
at all possible, with indirect experiences second choice, and vicarious 
experiences a very distant third choice. The presence of a teacher or 
mentor is still necessary.
    Just as exposure to nature has positive effects, lack of exposure 
has negative effects. Children under 13 living in the United States 
spend on average only about half an hour of unstructured time outdoors 
each week.\7\ Research suggests that this lack of nature exposure is 
leading to many developmental problems. For example, 5-year-olds 
limited in playing outdoors exhibited poorer social, behavioral, and 
motor skills and had fewer playmates than children who played more 
outdoors.\8\ Children attending a day care center surrounded by 
orchards, pastures, and woodlands (and where the children went outdoors 
every day regardless of weather) had better motor coordination and 
greater attention capacity than did children who attended an urban day 
care center surrounded by tall buildings.\9\ Children who moved to 
housing with more nature nearby tended to have higher levels of 
cognitive functioning and focus than children who moved to housing with 
less nature.\10\ Activities conducted in natural green settings tended 
to lower the symptoms of children with ADD/ADHD and raised self-
esteem.\11\
III. Economic Benefits of Nature-Based Environmental Education
    We have seen that elementary environmental education and hands-on 
nature experiences for children will increase interest in nature and 
affirm environmental attitudes. This in turn will have enormous and 
beneficial impacts on our use of nonrenewable resources and on our 
economy. The reduction in health costs relating to increased outdoor 
exercise will be substantial. Increased interest in nature would raise 
attendance at our great public lands, and reverse the negative trend in 
US nature-based tourism in general.
    In addition, we must consider that a downward trend in the quality 
of science education has emerged as a national crisis. The percentage 
of graduate students in science and engineering has declined steadily 
since 1993. Meanwhile, imports of science and engineering brainpower 
are up almost 40 percent. We must reverse this trend in order to remain 
competitive in the global economy.
IV. Closing
    In closing, I recognize that implementing nature-based 
environmental education will not be easy and will take strong political 
will and courageous leadership. But I firmly believe that our efforts, 
if we succeed, will pay rich dividends for our nation's future 
generations.
    Thank you again for this opportunity to testify. I welcome your 
questions on these topics.
                              attachments
1. Pergams, O. R. W. and P. A. Zaradic. 2008. Evidence for a 
        fundamental and pervasive shift away from nature-based 
        recreation. Proceedings of the National Academy of Sciences USA 
        105:2295-2300.
                  http://www.pnas.org/content/105/7/2295
2. Zaradic, P. A. and O. R. W. Pergams. 2007. Videophilia: Implications 
        for childhood development and conservation. Journal of 
        Developmental Processes 2:130-144. http://
        www.redrockinstitute.org/uploads/videophilia2.pdf
                                endnotes
    \1\ Pergams, O. R. W. and P. A. Zaradic. 2008. Evidence for a 
fundamental and pervasive shift away from nature-based recreation. 
Proceedings of the National Academy of Sciences USA 105:2295-2300.
    \2\ Zaradic, P. A. and O. R. W. Pergams. 2007. Videophilia: 
Implications for childhood development and conservation. Journal of 
Developmental Processes 2:130-144.
    \3\ Bogeholz, S. 2006. Nature experience and its importance for 
environmental knowledge, values and action: Recent German empirical 
contributions. Environmental Education Research, 12, 65 84.
    \4\ Wells, N. M., & Lekies, K. S.(2006. Nature and the life course: 
Pathways from childhood nature experiences to adult environmentalism. 
Children, Youth and Environments, 16, 1 24.
    \5\ Chawla, L. 1999. Life paths into effective environmental 
action. Journal of Environmental Education, 31, 15 26.
    \6\ Kellert, S. R. 2002. Experiencing nature: Affective, cognitive, 
and evaluative development in children. In P. H. Kahn, Jr. & S. R. 
Keller (Eds.), Children and nature: Psychological, sociocultural, and 
evolutionary investigations. (pp. 117 152). Cambridge, MA: The MIT 
Press.
    \7\ Hofferth, S., & Sandberg, J. 2001. Changes in American 
children's time, 1981 1997. In S. L. Hofferth & T. J. Owens (Eds.), 
Children at the millennium: Where have we come from, where are we 
going? Oxford, England: Elsevier Science.
    \8\ Huttenmoser, M. 1995. Children and their living surroundings: 
Empirical investigations into the significance of living surroundings 
for the everyday life and development of children. Children's 
Environments, 12, 403 413.
    \9\ Grahn, P., Martensson, F., Lindblad, B., Nilsson, P., & Ekman, 
A. 1997. Ute pa dagis. Stad and Land, Nr. 145 [Outdoor daycare. City 
and country]. Hassleholm, Sverige: Norra Skane Offset.
    \10\ Wells, N. M. 2000. At home with nature: The effects of nearby 
nature on children's cognitive functioning. Environment & Behavior, 32, 
775 795.
    \11\ Taylor, A. F., Kuo, F. E., & Sullivan, W. C. 2001. Coping with 
ADD: The surprising connection to green play settings. Environment and 
Behavior, 33, 54 77.
                                 ______
                                 
    Chairman Kildee. Thank you, Dr. Pergams. [Applause.]
    Dr. Lawrence?

 STATEMENT OF ROBERT LAWRENCE, DIRECTOR, CENTER FOR A LIVABLE 
    FUTURE, JOHNS HOPKINS BLOOMBERG SCHOOL OF PUBLIC HEALTH

    Mr. Lawrence. Chairman Kildee, Congressman Sarbanes, and 
members of the Subcommittee, I am pleased to be in this 
beautiful setting on Earth Day to speak about the promise of 
the No Child Left Inside Act.
    As Congress Sarbanes graciously said in his introduction, I 
am a professor of environmental health sciences at the Johns 
Hopkins Bloomberg School of Public Health and direct the Center 
for a Livable Future, whose mission is ``to advance an 
ecological perspective in reducing threats to the health of the 
public and to promote policies that protect health, the global 
environment, and the ability to sustain life for future 
generations.''
    Critical to this mission is the education of our children 
to become stewards of the environment, to develop a healthy 
relationship with the natural world, and to stimulate their 
minds and bodies through physical activity, exposure to the 
wonders of nature, and creative and spontaneous play in safe, 
natural outdoor settings.
    The No Child Left Inside Act will provide the resources 
necessary to support programs of environmental education. We 
are in the midst of an epidemic of childhood obesity that puts 
our children at risk for the first time in our nation's history 
to have a shorter life expectancy than their parents.
    Many factors contribute to this epidemic. The normal 
balance of energy consumed in food and drink and energy 
expended in physical activity has been upset by sharp decreases 
in physical education and outdoor play, concerns about the 
safety of children walking or biking to school, increased time 
watching television or playing computer games, and the 
consumption of processed foods high in fats and sugars.
    Increasing opportunities for regular exercise is crucial to 
preventing childhood obesity. One of the benefits of No Child 
Left Inside will be the physical activity associated with 
nature walks, outdoor play, and field trips to learn 
environmental stewardships, such as those we have seen today.
    The dramatic increase in childhood obesity started soon 
after the first Earth Day in 1970 and shows no signs of 
leveling off. Obesity among 2 to 19-year-olds has increased 
from 5 percent to more than 15 percent in the past 30 years. 
About two-thirds of our children no longer participate in any 
organized physical activity. And about one-quarter have no free 
time physical activity.
    Many suburban developments lack open green spaces for free 
time play. And the very nature of the street design with 
curving roads and no sidewalks compels parents to drive their 
children for play dates and other events. Gone are the acres of 
woodlot at the end of the road where children once explored the 
natural environment and engaged in hours of spontaneous play.
    This year for the first time in human history, half of the 
world's population, 3.3 billion people, will live in urban 
environments. And it is the rare cityscape that has adequate 
parkland and natural settings for children to explore.
    Environmental education linked to exploration of nature 
stimulates increased physical activity. Playground activity and 
active exploration of nature on field trips will increase the 
energy expenditure while providing other physical and mental 
benefits.
    Time spent in natural settings also provides emotional, 
social, and cognitive gains for children. Access to green 
spaces for play and even having views of green settings 
enhances peace, self-control, and self-discipline among inner-
city youth. For rural children, exposure to nature reduces 
stress, increases their ability to focus, and improves 
cognitive abilities.
    Nature is important to healthy development in children in 
every major area of growth: intellectual, social, spiritual, 
and physical. Play and learning in nature is especially 
important for developing capacities for creativity, problem-
solving, and intellectual development.
    Finally, our children will inherit a world facing grave 
environmental challenges, those of global climate change, 
enough fresh water to meet the needs of people, agriculture, 
and industry, and adequate food supply, and preservation of 
biodiversity. We must educate a new generation of 
environmentally literate citizens to maintain the fragile web 
of life.
    The Paleolithic record shows an average species loss over 
eons of three to four per year. We are now losing about 1,000 
species per year, a number that is likely to rise with 
continued destruction of natural habitats and global climate 
change.
    The need is urgent for our children to benefit from No 
Child Left Inside not just for the immediate health benefits 
described above but for the long-term benefits of raising a new 
group of intelligent, curious, and committed stewards of the 
natural world.
    Thank you very much.
    [The testimony of Dr. Lawrence follows:]

Prepared Statement of Robert S. Lawrence, M.D., Director, Center for a 
 Livable Future, and Professor of Environmental Health Sciences, Johns 
               Hopkins Bloomberg School of Public Health

          ``Nature-deficit disorder is not an official diagnosis but a 
        way of viewing the problem, and describes the human costs of 
        alienation from nature, among them: diminished use of the 
        senses, attention difficulties, and higher rates of physical 
        and emotional illnesses. The disorder can be detected in 
        individuals, families, and communities.''

                           --Richard Louv, Last Child in the Woods:
                   Saving Our Children from Nature-Deficit Disorder

    The key messages for policy makers in supporting the Sarbanes-Reed 
No Child Left Inside Act are:
    1. Support programs for environmental education and teacher 
training;
    2. Provide additional funding to states that develop environmental 
literacy plans for grades K-12;
    3. Re-establish the Office of Environmental Education within the 
U.S. Department of Education to provide leadership and oversight of 
environmental education activities; and
    4. Authorize the Secretary of Education to award competitive 
matching grants to nonprofit organizations, states, and local education 
agencies for activities to improve and support environmental education 
that include: 1) advancing content and achievement standards, 2) 
developing or disseminating innovations or model programs, 3) research, 
and 4) creating new funding sources.
Introduction
    I am very pleased to be here today in this beautiful setting and on 
the 38th anniversary of the first Earth Day to speak about the promise 
of the No Child Left Inside Act. My name is Robert Lawrence, and I am a 
professor of Environmental Health Sciences at the Johns Hopkins 
Bloomberg School of Public Health. I also serve as the director of the 
Center for a Livable Future, an interdisciplinary center devoted to 
research, education, advocacy, and community engagement to address the 
interactions among the environment, food production, diet, and human 
health that are all elements of a single complex ecosystem. Our mission 
is ``* * * to advance an ecological perspective in reducing threats to 
the health of the public and to promote policies that protect health, 
the global environment and the ability to sustain life for future 
generations.''
    Nothing is more critical to achieving this mission than the 
education of our children to become stewards of the environment, to 
develop a healthy relationship with the natural world, to stimulate 
their minds and bodies through physical activity, exposure to the 
wonders of nature, and opportunities for creative and spontaneous play 
in safe, natural outdoor settings, and for some to be inspired to seek 
careers related to protecting and preserving our natural world for 
future generations. The No Child Left Inside Act will provide the 
resources necessary to develop and support programs of environmental 
education and help reconnect our children with nature.
Public Health Aspects of Environmental Education
            Childhood obesity epidemic:
    We are in the midst of an epidemic of childhood obesity that 
threatens to produce a generation of Americans who will, for the first 
time in our history, have a shorter life expectancy than their parents. 
There are many factors contributing to this epidemic of overweight and 
obesity among our children and youth and in the adult population. The 
normal healthy balance of energy consumed in food and drink and energy 
expended in physical activity has been interrupted by sharp decreases 
in physical education and outdoor play in our education system, 
alterations in the built environment, the increasing reliance on labor-
saving devices, concerns about safety for children walking or biking to 
school that places them in buses and cars, increase in time spent 
watching television or playing computer games, increased consumption of 
processed foods high in fats and sugars, and the dramatic increase in 
high fructose corn syrup in soft drinks and juices.
    Measures directed at increasing caloric expenditure through regular 
exercise are crucial elements to preventing childhood obesity and 
helping children who are currently overweight or obese achieve a 
healthy weight as measured by age-adjusted body mass index (BMI). One 
of the benefits of No Child Left Inside will be the additional physical 
activity associated with nature walks, outdoor play, and participation 
in environmental stewardship learning exercises such as those sponsored 
by the Chesapeake Bay Foundation and other environmental groups.
    The dramatic and alarming increase in the rate of childhood obesity 
started soon after the first Earth Day and shows no signs of leveling 
off. As illustrated in Figure 1 and summarized in Table 1, the 
percentage of obese 2- to 19-year-olds has more than doubled in the 
past 30 years (as defined by the 95th percentile for body mass index or 
BMI by age).

                           TABLE 1: WHAT PERCENTAGE OF CHILDREN IN THE U.S. ARE OBESE?
                                       [CDC, Overweight Prevalence, 2007]
----------------------------------------------------------------------------------------------------------------
                             Age                                  1972-1974        2003-2004      Percent Change
----------------------------------------------------------------------------------------------------------------
2-5 years....................................................            5.0%            13.9%            +8.9%
6-11 years...................................................            4.0%            18.8%           +14.8%
12-19 years..................................................            6.1%            17.4%           +11.3%
----------------------------------------------------------------------------------------------------------------

                                                                                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                                                 
    A number of factors contribute to the energy imbalance responsible 
for these dramatic increases in childhood obesity. About 62 percent of 
children do not participate in any organized physical activity and 23 
percent do not participate in any free-time physical activity. (CDC, 
2003) The percentage of children who live within a mile of school and 
who walk or bike to school has declined nearly 25 percent in the past 
30 years. Barely 21 percent of children today live within one mile of 
their school. (Ogden, 2006) While 71 percent of adults report that they 
walked or rode a bike to school when they were young, only 22 percent 
of children do so today. (Beldon 2003)
    Suburban sprawl has been accompanied by the design of developments 
that frequently lack sidewalks or open green spaces for free-time play, 
and the very nature of the street design with curving roads, lollypop 
cul-de-sacs, and no sidewalks makes parents feel compelled to transport 
their children by car for play dates and other social interactions. 
Gone are the acres of woodlot at the end of the road where children 
once explored the natural environment, built tree-houses, and engaged 
in hours of spontaneous play. This year for the first time in human 
history half of the world's population will live in urban environments, 
and it is the rare cityscape that has adequate parkland and natural 
settings for children to explore. (UNFPA, 2007) Over 90 percent of 
parents say that safety is their biggest concern when making decisions 
about whether to allow their children to engage in free play outside. 
(Bagley, 2006) The result of these changes in the built environment and 
parental concerns about safety is that children now play predominantly 
at home where their activities are monitored and controlled by adults 
in contrast to the play of children a generation ago. Only 3 percent of 
children today have a high degree of mobility and freedom in deciding 
how and where to play. (Tandy, 1999)
    More and more of the time children once spent playing outdoors is 
now spent in front of a television set or a computer game. In 2003 the 
Kaiser Family Foundation found that 65 percent of children ages 8 and 
older had a television set in their bedroom, and 42 percent of children 
lived in a home where ``the TV set is on * * * most of the time, even 
when no one is watching.'' (Kaiser Family Foundation, 2003) In 58 
percent of U.S. homes, the TV is usually on during mealtimes.
    Integrating environmental education linked to subject matter in the 
classroom to exploration of the natural environment can serve as an 
important stimulus to increase physical activity. A combination of 
playground or gymnasium physical activity with expanded opportunities 
for active exploration of nature on field trips and in the school 
environment will increase energy expenditure while providing other 
benefits discussed later. A recent review of childhood obesity 
prevention co-sponsored by the Center for a Livable Future and the 
Department of Health, Behavior and Society at the Bloomberg School of 
Public Health lead to the following recommendations about the school 
environment:
    <bullet> Engage students in at least 30 minutes of moderate to 
vigorous physical activity each day.
    <bullet> Encourage the consumption of healthy foods by increasing 
the number of healthy options, pricing those options competitively, and 
reducing the number of unhealthy foods offered.
    <bullet> Provide high-quality health education in areas such as 
nutrition and physical fitness.
    Changes are needed for the built environment and for neighborhoods 
as well. Again, environmental education is an essential component of 
helping children appreciate nature and find pleasure and stimulation in 
active play and exploration of the outdoors. The following 
recommendations address changes needed at the neighborhood level:
    <bullet> Make communities more walk-able and bike-able.
    <bullet> Increase access to healthy foods. (Center for a Livable 
Future, 2007)
    The Meatless Monday and Eat Healthy Monday campaigns of the Center 
for a Livable Future are part of a broader Healthy Monday campaign to 
use the first day of the week as a motivator to change behavior and 
lower risk by eating healthier foods, exercising more, quitting the use 
of tobacco, and adopting other health promoting behaviors. School lunch 
(and in a growing number of schools, breakfast programs) are ideal 
venues for introducing Eat Healthy Monday menus and linking these to 
respect for the land and the environment. The rise of industrial 
agriculture since World War II has had a profound impact on the number 
of animals raised in factory settings with devastating impact on the 
environment, discharge of excess nutrients into watersheds, and the 
emergence of antibiotic resistant bacteria. These aspects of 
environmental education can help reinforce the value of eating a 
healthy diet composed of foods produced in a sustainable way.
    The linkage to access to healthy foods includes learning how our 
food is produced. Now that less than 2 percent of the U.S. population 
works in the agricultural sector, most children are ignorant of the 
sources of the food they eat. Environmental education can include 
learning about the natural cycle of plants and animals, including those 
that we consume in our diet. The role of community gardens, school 
gardens, and kitchen gardens should be integrated in environmental 
education to help children understand the source of healthy foods in 
contrast to processed foods and snacks while they expand their 
knowledge of the living world.
            Other public health benefits of environmental education:
    As important as the benefits of physical activity associated with 
environmental education and increasing time spent in natural settings 
are the emotional, social, and cognitive benefits for children. Many 
studies conducted in recent years show a range of benefits for children 
when they spend more time outdoors. Taylor and her colleagues found 
that children with attention-deficit disorder (ADD) benefited from more 
exposure to nature--the greener a child's everyday environment, the 
more manageable are the symptoms of ADD. (Taylor, 2001) Taylor also 
observed that access to green spaces for play, and even having views of 
green settings, enhances peace, self-control, and self-discipline among 
inner-city youth, especially among girls.
    For children living in rural areas Wells and Evans observed that 
exposure to green plants and natural vistas reduces stress. The 
reduction in stress was greatest in the settings where there are the 
greatest number of plants, green views, and access to natural play 
areas. (Wells, 2003) In an earlier study Wells observed that proximity 
to nature, access to views of nature, and daily exposure to natural 
settings increases the ability of children to focus and improves 
cognitive abilities. (Wells, 2000) In other words, by expanding 
environmental education and increasing exposure to natural settings, No 
Child Left Inside has the promise of improving learning in all subject 
areas such as those emphasized by current provisions of the No Child 
Left Behind legislation.
    Nature is important to healthy development in children in every 
major area of growth--intellectual, social, spiritual, and physical. 
Play and learning in nature is especially important for developing 
capacities for creativity, problem-solving, and intellectual 
development. We need, therefore, to alter our modern built environment 
to maximize opportunities for children to have contact with nature. 
(Kellert, 2005) Other investigators describe the benefits of free and 
un-structured play in the out-of-doors, noting that children will be 
smarter, better able to get along with others, healthier, and happier. 
(Burdette, 2005)
    Environmental education provided by schools can and should be 
supplemented by the child experiencing nature in the company of a 
family member or trusted adult. Chawla states that a positive, direct 
experience with nature and sharing that experience with a parent, 
grandparent or trusted adult are the two factors that most contribute 
to individuals choosing to take action to benefit the environment as 
adults. (Chawla, 2006)
    At the school environment level Bell and Dyment observed that 
children who experience school grounds or play areas with diverse 
natural settings are more physically active, more aware of good 
nutrition, more creative, and more civil to one another. (Bell, 2006) 
Outdoor experiences for teens result in enhanced self-esteem, self-
confidence, independence, autonomy, and initiative with persistence of 
these traits through many years. (Kellert, 1998) After excluding other 
variables, a study of students in California and nationwide 
demonstrated that schools that use outdoor classrooms and other forms 
of nature-based experiential education produce significant student 
gains in social studies, science, language arts, and math. One recent 
study found that students in outdoor science programs improved their 
science testing scores by 27 percent. (American Institutes for 
Research, 2005)
    Bell and Dyment observed that children in schoolyards with both 
green areas and manufactured play areas engaged in more creative forms 
of play in the green areas and also played more cooperatively. (Bell, 
2006) They also show more advanced motor fitness, including 
coordination, balance, and agility. (Fjortoft, 2001) Play is more 
diverse in natural environments with imaginative and creative play that 
fosters language and collaborative skills. (Moore, 1997; Fjortoft, 
2000) Play in diverse natural environments reduces or eliminates anti-
social behavior such as violence, bullying, vandalism, and littering 
and reduces school absenteeism. (Coffey, 2001; Malone, 2003; Moore, 
2000) A number of other studies confirm these benefits of having 
children spend more time out-of-doors. These benefits of better 
psychological well being, superior cognitive functioning, fewer 
physical illnesses, and more rapid recovery from illness apply to 
adults as well. But the benefits of experience in nature for children 
are more profound because of the greater plasticity and vulnerability 
of the young. (Wells, 2003)
Fostering Environmental Stewardship
    The world that our children will inherit contains enormous 
environmental challenges. Among the most important ones are global 
climate change; sufficient supplies of water to meet the needs of 
people, agriculture, and industry; adequate food supply; and 
preservation of biodiversity. Our children must learn the knowledge and 
skills and develop the proper attitudes to be good stewards of our 
endangered natural world. Without raising a new generation of 
environmentally literate citizens it is hard to imagine that we will be 
able to maintain the fragile web of life, as we have known it. The 
Paleolithic record shows an average species loss of 3-4 per year. The 
distinguished socio-biologist, E.O. Wilson, estimates that we are now 
losing about 1000 species per year, a number that is likely to rise 
with continued destruction of natural habitats and global climate 
change. The need is urgent for our children to benefit from No Child 
Left Inside--not just for the immediate health benefits described above 
but for the long term benefits of raising a new group of intelligent, 
curious, and committed stewards of the natural world.
                               references
American Institutes for Research, ``Effects of Outdoor Education 
        Programs for Children in California.'' AIR: Palo Alto, CA; 
        submitted to The California Department of Education, 2005.
Balmford, A., Clegg, L., Coulson, T., & Taylor, J. ``Why 
        Conservationists Should Heed Pokemon.'' Science, 295(5564), 
        2367-2367, 2002.
Bartlett, Sheridan. Access to Outdoor Play and Its Implications for 
        Healthy Attachments. Unpublished article, Putney, VT. 2006.
Bell, Anne C.; and Janet E. Dyment. ``Grounds for Action: Promoting 
        Physical Activity through School Ground Greening in Canada.'' 
        Evergreen. 2006.
Beldon Russonello and Stewart Research and Communications. ``Americans' 
        Attitudes toward Walking and Creating Better Walking 
        Communities.'' Surface Transportation Policy Project Report. 
        Washington: Beldon Russonello & Stewart Research and 
        Communications, 2003.
Bixler, Robert D., Floyd, Myron E. & Hammutt, William E. 
        ``Environmental Socialization: Qualitative Tests of the 
        Childhood Play Hypothesis,'' Environment and Behavior, 34(6), 
        795-818. 2006.
Burdette, Hillary L., M.D., M.S.; and Robert C. Whitaker, M.D, M.P.H. 
        ``Resurrecting Free Play in Young Children: Looking Beyond 
        Fitness and Fatness to Attention, Affiliation and Affect.'' 
        Arch Pediatr Adolesc Med. 159:46-50. 2005.
Center for a Livable Future. Perspectives on Childhood Obesity 
        Prevention: Recommendations from Public Health Research and 
        Practice. Johns Hopkins Bloomberg School of Public Health, 
        Baltimore MD, 2007.
Clements, R. (2004) ``An Investigation of the State of Outdoor Play.'' 
        Contemporary Issues in Early Childhood, Vol. 5(1):68-80. Pg 74. 
        2004.
Chawla, Louise. ``Learning to Love the Natural World Enough to Protect 
        It.'' Barn. Vol. 2, 2006
Cobb, E. The Ecology of Imagination in Childhood, New York, Columbia 
        University Press. : 57-58. 1977.
Coffey, Ann. Transforming School Grounds, in Greening School Grounds: 
        Creating Habitats for Learning, (eds) Grant, Tim and 
        Littlejohn, Gail., Toronto: Green Teacher and Gabriola Island, 
        BC: New Society Publishers. 2001.
Crain, William. ``Now Nature Helps Children Develop.'' Montessori Life, 
        Summer 2001.
Faber Taylor, A., Kuo, F.E. & Sullivan, W.C. ``Coping with ADD: The 
        surprising connection to green play settings.'' Environment & 
        Behavior, 33(1), 54-77. 2001.
Faber Taylor, A., Kuo, F.E. & Sullivan, W.C. ``Views of Nature and 
        Self-Discipline: Evidence from Inner City Children,'' Journal 
        of Environmental Psychology, 22, 49-63. 2002.
Faber Taylor, A., Wiley, A., Kuo, F.E., & Sullivan, W.C. ``Growing up 
        in the inner city: Green spaces as places to grow.'' 
        Environment and Behavior, 30(1), 3-27 1988.
Fjortoft, Ingunn. ``The Natural Environment as a Playground for 
        Children: The Impact of Outdoor Play Activities in Pre-Primary 
        School Children.'' Early Childhood Education Journal, 29(2): 
        111-117. 2001.
Fjortoft, I. And J. Sageie. ``The Natural Environment as a Playground 
        for Children: Landscape Description and Analysis of a Natural 
        Landscape.'' Landscape and Urban Planning, 48(\1/2\) 83-97. 
        2000.
Grahn, P., Martensson, F., Llindblad, B., Nilsson, P., & Ekman, A. UTE 
        pa DAGIS, Stad & Land nr. 93/1991 Sveriges 
        lantbruksuniversitet, Alnarp. 1997.
Hofferth, S.L. & J.F. Sandberg. ``Changes in American Children's Time, 
        1981-1997.'' In S.L. Hofferth & T.J. Owens (Eds.), Children at 
        the Millennium: Where Have We Come From, Where Are We Going? 
        (pp. 1-7). New York: JAI, 2001.
Hofferth, S.L. & S.C. Curtin. ``Changes in Children's Time'', 1997-
        2002/3: An Update, 2006.
Kaiser Family Foundation. New Study Finds Children Age Zero to Six 
        Spend As Much Time With TV, Computers and Video Games As 
        Playing Outside Available at: http://www.kff.org/entmedia/
        entmedia102803nr.cfm (accessed April 14, 2008).
Karsten, L. ``It All Used to be Better? Different Generations on 
        Continuity and Change in Urban Children's Daily Use of Space.'' 
        Children's Geographies, Vol.3 (3), pp275-290, 2005.
Kellert, Stephen R. ``Nature and Childhood Development.'' In Building 
        for Life: Designing and Understanding the Human-Nature 
        Connection. Washington, D.C.: Island Press. Pg 83. 2005.
Kellert, Stephen R., Derr, Victoria. A National Study of Outdoor 
        Wilderness Experience. New Haven: Yale University. 1998.
Kids Walk-to-school: Then and Now--Barriers and Solutions. Center for 
        Disease Control and Prevention, 2006. http://www.cdc.gov/
        nccdphp/dnpa/kidswalk/then--and--now.htm
Kuo, Frances E.; and Andrea Faber Taylor. ``A Potential Natural 
        Treatment for Attention-Deficit/Hyperactivity Disorder: 
        Evidence from a National Study.'' In American Journal of Public 
        Health, Vol 94, No. 9, September 2004.
Louv, Richard. Childhood's Future, New York, Doubleday. 1991.
Louv, Richard. Last Child in the Woods: Saving our Children from Nature 
        Deficit Disorder. Algonquin Books. 2005.
Malone, Karen & Tranter, Paul. ``Children's Environmental Learning and 
        the Use, Design and Management of Schoolgrounds,'' Youth and 
        Environments, 13(2), Accessed June 9, 2004 from 
        cye.colorado.edu. 2003.
Moore, Robin & Cosco, Nilda. ``Developing an Earth-Bound Culture 
        Through Design of Childhood Habitats, Natural Learning 
        Initiative.'' paper presented at Conference on People, Land, 
        and Sustainability: A Global View of Community Gardening, 
        University of Nottingham, UK, September 2000.
Moore, Robin. ``Impact Nature: The Role of Playing and Learning Gardens 
        on Children's Lives,'' Journal of Therapeutic Horticulture, 8, 
        72-82. 1996.
Moore, R. & Wong, H. ``Natural Learning: Rediscovering Nature's Way of 
        Teaching.'' Berkeley, CA MIG Communications. 1997.
Moore, Robin C. ``The Power of Nature Orientations of Girls and Boys 
        Toward Biotic and Abiotic Play Settings on a Reconstructed 
        Schoolyard.'' Children's Environments Quarterly, 3(3). 1986.
Nowak, R. ``Blame lifestyle for myopia, not genes.'' NewScientist, July 
        10, 2004, 12. 2004.
Ogden, C. L., Carroll, M. D., Curtin, L. R., McDowell, M. A., Tabak, C. 
        J., & Flegal, K. M. ``Prevalence of Overweight and Obesity in 
        the United States, 1999-2004.'' Journal of the American Medical 
        Association, 295(13), 1549-1555, 2006.
Pyle, Robert. ``Eden in a Vacant Lot: Special Places, Species and Kids 
        in Community of Life.'' In: Children and Nature: Psychological, 
        Sociocultural and Evolutionary Investigations. Kahn, P.H. and 
        Kellert, S.R. (eds) Cambridge: MIT Press. 2002.
U.S. Centers for Disease Control and Prevention (CDC). ``Phsyical 
        Activity Levels Among Children Aged 9-13 Years--United States, 
        2002.'' MMWR Weekly; 52(33):785-88, 2003.
Rideout, V. and E. Hamel. ``The Media Family: Electronic Media in the 
        Lives of Infants, Toddlers, Preschoolers, and Their Parents.'' 
        Kaiser Family Foundation, 2006.
Rideout, Victoria J., Vandewater, Elizabeth A., Wartella, Ellen A. 
        ``Zero to Six: Electronic Media in the Lives of Infants, 
        Preschoolers, and Toddlers.'' A Kaiser Family Foundation 
        Report. Pg 4. 2003.
Roberts, Donald F., Foehr, Ulla G., Rideout, Victoria A. ``Generation 
        M: Media in the Lives of 8-18 Year-olds.'' A Kaiser Family 
        Foundation Study. Pg 3. 2005.
Tandy, C. ``Children's Diminishing Play Space: A Study of 
        Intergenerational Change in Children's Use of Their 
        Neighborhoods.'' Australian Geographical Studies, 37(2), 154-
        164, 1999.
Taylor, Andrea Faber; Frances E. Kuo; and William C. Sullivan. ``Coping 
        with ADD: The Surprising Connection to Green Play Settings.'' 
        In Environment and Behavior, Vol. 33, No. 1, January 2001.
Taylor, Andrea Faber; Frances E. Kuo; and William C. Sullivan. ``Views 
        of Nature and Self-Discipline: Evidence from Inner City 
        Children.'' Journal of Environmental Psychology, 21, 2001.
United Nations Population Fund. UNFPA State of World Population 2007. 
        Available at: http://www.unfpa.org/swp/2007/english/
        introduction.html (accessed April 14, 2008).
Veitch, J., Bagley, S., Ball, K., & Salmon, J. ``Where Do Children 
        Usually Play? A Qualitative Study of Parents' Perceptions of 
        Influences on Children's Active Free Play.'' Health & Place, 
        12(4), 383-393, 2006
Wells, N.M. ``At Home with Nature: Effects of `Greenness' on Children's 
        Cognitive Functioning.'' Environment and Behavior. Vol. 32, No. 
        6, 775-795. 2000.
Wells, Nancy M. & Evans, Gary W. ``Nearby Nature: A Buffer of Life 
        Stress Among Rural Children.'' Environment and Behavior, 35(3), 
        311-330. 2003.
Wilson, Ruth A. The Wonders of Nature--Honoring Children's Ways of 
        Knowing, Early Childhood News, 6(19). 1997.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Dr. Lawrence. 
[Applause.]
    Chairman Kildee. Mr. Davidson?

  STATEMENT OF SEAN DAVIDSON, CO-FOUNDER, GREENLIGHT BIOFUELS

    Mr. Davidson. Thank you, Chairman, Representative Sarbanes, 
and members of the Subcommittee, for allowing me to attend this 
hearing to tell my story of how environmental education 
impacted what I have done to date.
    I would briefly like to introduce myself. My name is Sean 
Davidson. I am 22 years old. I grew up in suburban Columbia, 
Maryland, where I currently live.
    I work for a company called Greenlight Biofuels, which 
operates a four million-gallon per year biodiesel production 
facility in Princess Anne, Maryland. I and a team of two other 
people co-founded the $6 million facility.
    Biodiesel,--I have some here--which is an alternative fuel 
for diesel engines, is clean-burning, locally produced, and 
made from alternative sources, such as used vegetable oils and 
animal fats.
    Compared to regular diesel, burned biodiesel has as much as 
78 percent less carbon dioxide and other emissions. It is part 
of a sustainable environmentally sound solution to our nation's 
energy needs. I am here to tell the story of how I reached this 
accomplishment and the role that my environmental education 
experiences played in it.
    Up until middle school, I had very little exposure to 
environmental education. In late middle school, I and 19 other 
students won the opportunity to go on a school-sponsored trip 
to a farm, where we camped and learned about the outdoors.
    I thoroughly enjoyed this experience. I looked for more 
like it and came across Chesapeake Bay Foundation's two-week 
trip for gifted and talented students, a camping trip that took 
me in and around the Bay via foot, skipjack, canoe, and van.
    I learned the roots of what I would later categorize as the 
three pillars of environmental education: one, the appreciation 
and respect for outdoor beauty and its enjoyment; two, the 
understanding of ecology and the interaction of people with it; 
and, three, the utility and value of the resources around us.
    At the end of the course, they gave us the challenge to do 
an environmental project in our community. I went on to 
organize friends to raise for release into the Bay oyster spat 
and underwater grasses, which are two keystone species in the 
Bay ecosystem. I also did several trash cleanups.
    The lesson I learned was that a person can make a 
difference in their own sphere of influence, even if it is 
small. However, I was frustrated with the limitations of not 
enough money and the difficulty of motivating others to get 
involved and make a significant impact.
    Continuing through high school, I never forgot the 
importance of the environment and the idea that I can make a 
change within my sphere of influence. Often this meant simply 
relating a paper to or doing a research project in school on 
environmental topics.
    After not long, though, I began thinking about what careers 
would allow me to spend my time making positive environmental 
impacts. My best ideas were to become an educator or a 
scientist as the means to have the largest impact within this 
area of influence. Then when considering these options and how 
their work is implemented, I began to realize I had a knack for 
understanding business.
    When college rolled around, I began studying business. It 
wasn't long before this led me to see I could have a profitable 
business that practiced environmental stewardship. Even better 
would be a business that made money specifically doing that was 
something environmentally friendly. In this way I could have 
the largest possible positive impact.
    When I and a partner discovered the market trend that 
allowed a biodiesel manufacturing business to be economical, we 
tackled it with conviction and perseverance. It was a marriage 
of business and the environment that just made sense. So I am 
here today.
    I sit before you, having learned a great deal more about 
those three pillars of environmental education: appreciation 
and respect, ecology and interaction with it, and resources and 
our dependence on them. And I am astounded at how many people 
around me and the people going through school knew so little in 
those areas.
    Not only have I seen firsthand the lack of environmental 
education around me, I've read reports and articles speaking to 
how our culture and educational system is moving away from 
these things.
    Video games, iPods, laptops, and the internet are often 
cited as contributing culprits but are no excuse for the lack 
of a system that gives opportunity for outdoor learning to take 
place. These outdoor learning experiences were very influential 
in my own life and prepared me to later develop and build the 
biodiesel project with the environment in mind.
    It may be my opinion, but my experiences have taught me 
that not only is environmental education needed in our schools 
today but that it can be successful in its desired goals. 
Please consider this insight when you consider your support for 
the No Child Left Inside Act.
    Thanks. [Applause.]
    [The testimony of Mr. Davidson follows:]

  Prepared Statement of Sean Davidson, Co-Founder, Greenlight Biofuels

    Thank you Chairman for allowing me to attend this hearing to tell 
my story of how environmental education impacted what I have done to 
date.
    I'd like to briefly introduce myself. My name is Sean Davidson and 
I am 22 years old. I grew up in suburban Columbia, MD where I currently 
live. I work for a company called Greenlight Biofuels who operates a 4 
million gallon per year biodiesel production facility in Princess Anne, 
Maryland. I and a team of two other people co-founded the $6 million 
facility.
    Biodiesel which is an alternative fuel for diesel engines is clean 
burning, locally produced, and made from alternative sources such as 
vegetable oils and animal fats. Compared to regular diesel when burned 
biodiesel has as much as 78% less carbon and other emissions. It is 
part of a sustainable environmentally sound solution to our nations 
energy needs. I am here to tell the story of how I reached this 
accomplishment and the role that my environmental education experiences 
played in it.
    Up until middle school I had very little exposure to environmental 
education. In late middle school I and 19 other students won the 
opportunity to go on a school sponsored trip to a farm where we camped 
and learned about the outdoors. I thoroughly enjoyed the experience. I 
looked for more like it and came across the Chesapeake Bay Foundation's 
two week trip for gifted and talented students. A camping trip that 
took me in and around the bay via foot, skipjack, canoe, and van. I 
learned the roots of what I would later categorize as three pillars of 
environmental education.
    1. Appreciation and respect for outdoor beauty and enjoyment
    2. An understanding of ecology and the interaction of people with 
it
    3. The utility and value of the resources around us
    At the end of the course they gave us the challenge to do an 
environmental project in our community. I went on to organize friends 
to raise for release into the bay oyster spat and under water grasses 
which are two keystone species in the bay ecosystem. I also did several 
trash cleanups. The lesson I learned was that a person can make a 
difference in their own sphere of influence even if it is small. 
However, I was frustrated with the limitations of not enough money and 
the difficulty of motivating others to get involved to make a 
significant impact.
    Continuing through high school I never forgot the importance of the 
environment and the idea that I can make change in my sphere of 
influence. I began thinking about what careers would allow me to spend 
my time making positive environmental impacts. My best ideas were to 
become an educator or a scientist as the ways to have the largest 
impact within my sphere of influence. While considering my career 
options and their impact I began to realize I had a knack for 
understanding business.
    When college rolled around I began studying business. It wasn't 
long before this led me to see I could have a profitable business that 
practiced environmental stewardship. Even better would be a business 
that made money specifically doing something environmentally friendly. 
In this way I could have the largest possible positive impact. When I 
and a partner discovered the market trend that allowed a biodiesel 
manufacturing business to be economical we tackled it with conviction 
and perseverance. It was a marriage of business and environment that 
just made sense and so here I am today.
    So I sit before you having learned a great deal more about those 
three pillars of an environmental education. Appreciation and respect, 
ecology and our interaction with it, and resources and our dependence 
on them. And I am astounded at how many people around me and people 
going through school know so little in those areas.
    Not only have I seen first hand the lack of environmental education 
around me I've read reports and articles speaking to how our culture 
and educational system is moving away from teaching these things. Video 
games, iPods, laptops, and the internet often are cited as contributing 
culprits but, are no excuse for the lack of a system that gives 
opportunity for outdoor learning to take place.
    It may be my opinion, but my opinion through experience that not 
only is environmental education needed in our schools today but, that 
it can be successful in its desired goals. Please consider this insight 
when you consider your support for the No Child Left Inside Act.
    Thank You.
                                 ______
                                 
    Chairman Kildee. Thank you very much. Thank you very much.
    I will recognize myself for my five minutes of questions. 
Superintendent Grasmick, can you expand on some of the ways 
that environmental concepts are included in Maryland's 
voluntary state curriculum?
    Ms. Grasmick. Absolutely. It begins in elementary school. 
It is a specific area where students are not only taught the 
concepts, there is an expectation of students having outdoor 
experiences, and that is expanded into middle school and high 
school. And it goes across our science curriculum, specifically 
identified as environmental education curriculum. It certainly 
is integrated into our math curriculum, et cetera.
    So every aspect of the curriculum has some contact with 
environmental education. And, as I indicated, we are requiring 
that students have an outdoor environmental experience every 
single year to stimulate this interest.
    And in schools such as Pot Spring you heard today from Ms. 
Harris, students are using environmental education as a part of 
learning for every subject area within those schools.
    And so we do have in reality an unevenness based on often 
the commitment of the principal, but every school must be 
teaching these concepts. And we are evaluating that. But to the 
extent that you heard from Pot Spring Elementary School, I 
could not say that all 1,600 schools in the State of Maryland 
have that kind of robust program. However, we are seeing an 
accelerating interest in this.
    Of the 24 jurisdictions, 9 have outdoor educational, 
environmental educational, settings where students go for 
residential opportunities to really pursue the preparation they 
have received in the classroom in those environmental settings 
and take that back and continue to do projects which will 
expand their knowledge.
    And so we feel very excited about this aspect of No Child 
Left Inside because we agree with it. And we are saying it is a 
mandatory part of our teaching in the State of Maryland.
    And so Ms. Harris actually has a folder from the 
Principals' Academy which the State Department of Education 
supports and initiates. And I do agree with your comment that I 
have never seen a great school that didn't have a great 
principal. And so we have organized our State Department of 
Education to have a special division devoted exclusively to 
leadership.
    And I must say Congressman Sarbanes was a wonderful 
addition to our department in accelerating the importance of 
that and some of the creative ideas, but I am mentioning this 
because we have this opportunity to influence principals in 
terms of the creativity of integrating this in all aspects of 
learning for our students through our principal academies.
    Chairman Kildee. Thank you very much. You know, you draw to 
mind when I was teaching, pay for teachers is always low. It 
was low then, too. So I taught summer school. And I taught a 
class in English literature. This was not acceleration. Mostly 
all boys who had failed English literature for the regular 
school year. So they were a pretty strong group of young men.
    I came to the poetry section. I figured I'm going to have 
problems here. They were totally bored. So I went to my 
principal, Bob Rodda. May he rest in peace. And I said, ``Bob, 
we have behind the school what is called Sleepy Hollow, kind of 
a wooded area. Could I take my students out there, especially 
during this poetry section?''
    He said, ``Dale, you are a professional teacher. Use your 
professional judgment.'' And I tell you that was one of the 
best experiences I had and they had.
    And occasionally I would still run into someone in Flint 
who would say, ``My name is'' so and so. ``You taught me out in 
Sleepy Hollow.'' And he remembered that. And it really made a 
difference in the teaching, that setting there.
    Ms. Grasmick. Absolutely.
    Chairman Kildee. So thank you very much.
    And my principal was smart enough to realize that you do 
work with your teachers, too, right, if they come up with an 
idea? If it is a good idea, give them some----
    Ms. Harris. Hire good people and stay out of their way. 
[Laughter.]
    Chairman Kildee. That is very good. Very good.
    Mr. Grijalva?
    Mr. Grijalva. Thank you very much. Just a couple of quick 
questions, but I want to thank the panel, informative and very, 
very important testimony.
    I am on this Committee under the able leadership of Mr. 
Kildee, and I happen to chair a Subcommittee on Natural 
Resources, National Forests, Parks, and Public Lands. When we 
had a hearing on the similar subject, I think Mr. Sarbanes made 
a really good point then, and I think the follow-up is this, 
that key to this environmental education and No Child Left 
Behind will be the focus of the school, this, as the departure 
point for this activity. And I agree it is critical.
    You know, we are going through a time right now where the 
environment at some levels is treated with benign neglect if 
not disdain. I think environmental education for a lot of 
reasons is important. I will probably come back to you, Doctor, 
with a question about that.
    As we look at our public parks and our public lands, 
visitation in some areas continues to go down. And so we need 
to build not only environmental literacy and sense of 
stewardship and sensitivity and awareness about the 
environment, but we need to build a constituency to protect 
these public places of ours that are so important. And I see 
this as a very positive outcome of environmental education as 
well.
    The new visitors to our parks in the next decade or two are 
going to be more urban, more diverse, more family-oriented kind 
of activities. I think those are all important gains for our 
public lands because that public support is critical to their 
existence.
    If I may, Ms. Harris, you mentioned something in your 
testimony about changing the culture of the school. You know, 
we are faced with this culture that you have to teach to the 
test. And so as you talk to other educators, they make it an 
either/or proposition. Either I prepare and teach for the test 
or I do those other extracurricular things: music, art, 
environmental education.
    Tell me why in changing the culture you don't think it is 
an either/or proposition or should function that way.
    Ms. Harris. It is a dilemma because we do a lot of 
assessment. And we are held accountable. At our school system, 
we are held accountable for the Maryland voluntary state 
curriculum. And I truly believe in it. And I know that we are 
holding our children to a very high standard.
    That doesn't mean that you have to teach to a test. Good 
teaching is good teaching. They need to understand what it is 
that the children are going to be responsible for learning. You 
can teach that through a variety of contexts.
    I believe strongly that if you show children the purpose 
and the reason for learning something, then they understand why 
to learn and they are invested in learning it. If they are 
applying that knowledge and those skills in authentic ways, 
then they have a purpose for their learning. That will equate 
to better test results.
    If we teach children, they have to learn how to read. They 
have to learn how to write. But if they have a purpose for 
their reading and they understand ``I need to be able to learn 
more about what is happening with erosion on my school grounds 
so that I can create a project that is going to overcome those 
issues,'' then I have a deeper understanding of why I am 
reading about this, I am going to invest more time. It is also 
more engaging.
    One of the things that I noticed when I was at Pot Spring--
I don't think my staff knows this, and I have several of them 
here. So I am going out on a limb here, but when I first walked 
through my building, we had a lot of children who had been 
taught how to play school. And they did it very well. The 
teacher would be in the front of the classroom teaching their 
little heart out, and the children are building airplanes in 
their desk. And that is a true story. They weren't engaged. 
They looked like they were learning. But they weren't engaged 
in the learning process.
    Now you go into classrooms in my school. And children are 
working in groups. They are working together. They are creating 
very meaningful work at a very high level because that work is 
going to be read by important people. They understand that they 
just can't write garbage.
    I think that all of that has equated to our students 
learning at a higher level. And that equates to higher test 
scores.
    Mr. Grijalva. Thank you.
    Ms. Harris. We don't teach to the test.
    Mr. Grijalva. Dr. Lawrence, one of the cornerstones of the 
legislation is to reestablish the Office of Environmental 
Education within the Department of Education. Do you have 
comments on that?
    Mr. Lawrence. Well, I think the mixture of environmental 
education to provide the knowledge base for becoming 
responsible stewards of the environment is a big part of it, 
but, as the previous comments have been focused on the ability 
of children to learn, Dr. Pergams and I cited much of the same 
literature in our testimony because it is a relatively new 
phenomenon for people to be concerned about what is happening 
to our children with regard to their physical inactivity, with 
regard to how little time they spend out in nature.
    And study after study is showing that, indeed, something 
really good happens to the way our minds work when we are 
stimulated, as we all are today, by the variety of colors, the 
sounds, the bird song, the spring flowers. All of that is doing 
things in our complex nerve net that makes us then absorb other 
cognitive information more readily.
    We don't know how that happens yet. And we may never know 
it is such a complicated way in which our brain processes 
information, but I think the knowledge base of what is 
happening to our environment and then the experience in the 
environment to allow us to function more effectively and for 
children to become better problem solvers is absolutely 
essential. It is a hand in glove phenomenon.
    And it is very easy to get quite pessimistic about the 
outlook for the Earth's planet. You know, we are adding two to 
three parts per million of carbon to the atmosphere every year. 
We are already about 100 parts per million above historic 
highs. All of this is going to impact the current generation of 
children in a profound way, as Chairman Kildee said in his 
opening remarks.
    Those of us in the later years of our life, we're not going 
to benefit much from dramatic change, but our legacy, what we 
leave our children and our grandchildren, is absolutely at the 
center of a moral relationship with the natural world. And 
somehow the only way that children can acquire that is to 
experience it directly and then have that stimulate other 
curiosity, as we have heard from Mr. Davidson.
    Mr. Grijalva. Thank you very much.
    Chairman Kildee. Will you yield?
    Mr. Grijalva. Absolutely.
    Chairman Kildee. I just was very happy to hear you use the 
word ``moral'' because we do have a moral responsibility, not 
just for my own--I have seven grandchildren, but for all the 
children around the world. We have a tall responsibility to 
them.
    And I would like to think that we could leave the world a 
better place in every way than it was when we entered it. But 
we know that environmentally we have not done that, but we have 
the opportunity and we have the obligation and we have the 
moral obligation to do that.
    And I am very happy that is a part of your----
    Mr. Lawrence. Thank you.
    Chairman Kildee. Thank you.
    Mr. Grijalva. Thank you.
    And, just in closing, I was watching one of my favorite 
philosophers on TV the other day, George Carlin. [Laughter.]
    And he said a very profound thing. He said, ``Whatever 
happened to that kid playing outside with the stick?''
    With that, thank you very much. [Applause.]
    Chairman Kildee. The gentleman from the great State of 
Maryland, Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman. I want you to know I 
am restraining the impulse to ask you that all of our hearings 
going forward be outside. [Applause.]
    Chairman Kildee. He is the one who insisted they be 
outside.
    Mr. Sarbanes. That is right.
    Chairman Kildee. I have to wonder how----
    Mr. Sarbanes. We rolled the dice.
    Chairman Kildee. Thanks for insisting.
    Mr. Sarbanes. Thank you. And I wanted to also thank 
Chairman Grijalva for his leadership on the Subcommittee of 
Natural Resources that I have the privilege of serving on.
    Ms. Harris, I was intrigued when you were talking about the 
bluebird nesting box project that engaged some of your students 
because my son, who I mentioned before, is a very avid birder 
and bird photographer now. In fact, tonight or Friday he is 
going down to be a guide at the Delmarva Birding Weekend on the 
Eastern Shore.
    He first got interested in birds because he went to a 
Maryland State Department-sponsored, State Department of 
Education-sponsored, bluebird camp in western Maryland, in 
Washington County. And he came back from that experience just 
completely converted.
    In May, he is going to Texas to participate in a four-day 
Texas birding classic competition, which I don't think the 
Superintendent here knows. So I can say this is going to mean 
he is going to miss a day and a half of school. [Laughter.]
    Mr. Sarbanes. And when I confronted him with that problem, 
he said, ``Well, you are the one who says we have to get out of 
school and into nature.'' [Laughter.]
    I said, ``I meant out into a class outside, not away from 
school.'' But, in any event, it just shows how these early 
experiences can grab hold of a child and steer them in these 
wonderful directions.
    I was wondering if you, Dr. Grasmick and you, Ms. Harris, 
could speak. We talked a lot about the benefits of the children 
of environmental education. But I have to imagine that the 
effect, the positive effect, it is having on teachers in terms 
of them feeling renewed and engaged and excited about their 
ability to reach and teach their students is also something to 
behold.
    And I wonder if you could speak about that in terms of the 
experience in your own school and then, Dr. Grasmick, across 
the state what you are seeing with that.
    Ms. Harris. I do have a wonderful staff. And I am very 
blessed to be their leader. One of the things that they have 
said to me over time since we have been doing this kind of 
teaching and learning is that it has brought the fun back into 
teaching.
    Because the state mandates and the federal mandates for 
success for all children truly is what drives what we do, there 
are occasions where that becomes more teaching to the test or 
can become more teaching to the test and you become so enmeshed 
in just teaching, in book learning, and making sure that they 
are writing and it is all just so intense that it has taken 
some of the fun out of teaching.
    And my staff, I encourage them. I am out there with them. 
But I say, ``Get them outside.'' The video that you could pick 
up, actually, is part of my children and my staff outside at 
the stream near our school.
    They have to teach what is required. They have to learn 
what is required. But can't we do it in a fun way? And I 
thinking learning and teaching should be fun.
    It is a very difficult job. They have an enormous stress, 
an enormous amount of responsibility to make sure that their 
children are ready for the next year and ready for the world. 
But they can do it in a different way and still get great 
results.
    So I really cheer them on. I feel my job is to hire great 
people, to support what they are doing, to give them the staff 
development that they need to be successful, to join them in 
the joy of teaching and learning, and then really to get out of 
their way and say, ``It is okay. You are doing good things.''
    Mr. Sarbanes. Thank you.
    Ms. Harris. So I have several of them here, and they are 
very enthusiastic people. But, again, I am very lucky to have 
them.
    Ms. Grasmick. I would say from the perspective of the 
entire state--and I do want to acknowledge her. She is right 
behind me, Rebecca Bell, who does an amazing job in working 
with our teachers, in setting up the summer centers, as you 
alluded to with your son.
    What I have seen that is so profound as I travel around the 
state is the retention factor of teachers in schools where they 
can integrate this experience and knowledge of the environment 
with the teaching across subject areas.
    I was just in one of the most heavily impacted urban 
schools in terms of circumstances of poverty. And when I walked 
through the door, it was like an oasis. And we have identified 
that as one of our six blue ribbon schools in the State of 
Maryland.
    And by all circumstances and what stereotypically would be 
expressed is teachers would not want to be there. And, yet, 
year after year there's 100 percent retention of teachers 
because of the creativity, because of this integration of the 
opportunities for students through the environmental 
experiences that they have beyond that narrow community and the 
creativity of the teachers that have been described in a 
suburban school.
    And so I see it as both motivational for teachers, 
contributing greatly to teacher retention, teachers feeling 
creative, and I also see it as fostering a new cohort of 
teachers.
    When I spoke about the students who were high school 
students who were at this conference I had with Johns Hopkins 
and they were talking about the STEM areas and talking about 
what they want to do as a career path, they weren't necessarily 
talking about being engineers. They were interested in 
engineering, but they were talking about becoming teachers. And 
that stimulation began in elementary school for these students 
with the experiential learning that they had.
    And so we are fostering perhaps a whole new cohort of 
teachers. They see teaching through different eyes, not as 
regimented but as a creative profession that does this kind of 
integration on the environment with the subject material.
    Mr. Sarbanes. I guess what I am hearing is in a sense, it 
is a disservice to our teachers if we don't give them this 
environmental education resource to use with their students.
    Dr. Pergams and Dr. Lawrence, thank you for being here. I 
heard in I think, Dr. Pergams, your testimony a suggestion--or 
maybe it was Dr. Lawrence, but I would like to have both of you 
react to this--the notion that you can't teach about the 
environment if you are not in the environment.
    And maybe you could just sort of build on that concept or 
flesh it out a little bit more because I think it relates to 
this notion that we can somehow turn environmental stewardship 
over to experts when, in fact, the only way we are going to 
save the environment and combat global warming and save the 
Chesapeake Bay is if all of us begin to have the habits that 
will do that.
    So we need guidance and leadership from the experts, but we 
have to own it ourselves. And in the same way, you just can't 
teach in a classroom inside four walls that environment is 
important if you are not actually outside in the environment. 
Maybe you could speak to that.
    Dr. Pergams. I think the research backs this up, and it is 
also my own personal experience from taking kids into nature 
and for my own children that learning about nature without 
going there is just like learning any other subject.
    But if you go into nature and if you--it can range from 
just simply playing outside in a forest or a vacant lot or 
going on a field trip with a teacher or going, you know, Boy 
Scout camp with a leader that knows something about nature.
    What is important I think is the great variety of input 
that children get in the huge, beautiful, chaotic world of 
stimulus that the children get and the vast demands it makes on 
their neural net and their developmental progress.
    So I think you re-create this kind of complex, chaotic 
world in a movie or a webcam or a book. And that is I think 
really the difference here. You don't know. When you go out 
into nature, you don't know what is going to happen, actually. 
You don't know what you are going to see when you turn over 
that log. You know, you don't know what you are going to get 
when you sweep that net into the pond.
    It is unpredictable. And, therefore, it is wonderful. And, 
therefore, it has an incredible influence on their children's 
developmental and cognitive progress.
    Dr. Lawrence. I would just supplement that a little bit by 
saying that recent understanding of neural development in the 
child reinforces everything that Dr. Pergams said. We now 
understand that, in fact, an infant has many more synaptic 
connections among cells in the brain than we do as adults. And 
those synaptic connections are in great redundancy. When they 
are not used, they start getting pruned.
    And so if you don't begin learning a second language by a 
certain age, if you don't take up a musical instrument by a 
certain age, if you don't begin to understand how complex the 
web of life is by a certain age, those potential synaptic 
connections are going to get pruned.
    And that is why early exposure to children, to the wonders 
of nature has an explanation that we are beginning to be able 
to connect the dots and say, ``This is stimulating a certain 
part of the cortex. This is keeping some of those synapses 
together and, in fact, stimulating the creation of additional 
ones.''
    So pattern recognition, hands-on, scooping the net, as the 
children and young people did today, in the ponds, and counting 
the variety of natural organisms, that is stimulating their 
brains in a way that sitting in front of a video or reading a 
book just doesn't do it.
    It doesn't mean that we shouldn't complement and supplement 
and integrate standard methods of educational approach with 
hands-on, but the more we learn about the way the brain matures 
and develops, the more powerful is the idea that we need to 
have these kinds of hands-on experience.
    I would also say that there is this whole interesting 
phenomenon of trying to begin to integrate concepts of natural 
capital with social capital as well as financial capital for 
development and so on.
    And it is the opportunity to work together as they were 
working together that creates social capital. And the social 
capital is what was described by our colleagues that they are 
beginning to see in positive ways in the schoolroom and among 
teachers. And all of that then begins to really reinforce.
    So it is very powerful. And it fits in with what is 
evolving in our understanding of the way the human mind works.
    Mr. Sarbanes. Thank you.
    Mr. Chairman, I am sure I am out of time. I had a real 
quick question for Mr. Davidson.
    Chairman Kildee. Go ahead.
    Mr. Sarbanes. I was just curious. You are now moving in an 
arena where there are others that are in these places where, as 
you put it, business marries the environment. And I am 
wondering if you have encountered others who got into their 
business because they had their sort of environmental awareness 
raised at some point along the way.
    Mr. Davidson. I have, actually. For example, in my 
experiences that I went through, not only is it awareness that 
is created, but it is appreciation, love, respect, which kind 
of breeds a passion in a person that is required when you go to 
start a business.
    I think I briefly mentioned that we tackled it with 
conviction and perseverance. You know, that is borne from the 
passion that we got, you know, for me partly from my 
experiences and my desires to do something significant with the 
environment. In the other business leaders I meet I could see 
that passion reflected, especially strong when it is in what 
they are doing, when their business matches their environmental 
agenda.
    And I have met some people in Maryland and elsewhere that 
have gone that route.
    Mr. Sarbanes. So the drive that is needed to succeed in 
business can come from having had this environmental passion.
    Thank you, Mr. Chairman. I appreciate it.
    Chairman Kildee. Dr. Lawrence, before I call upon the 
gentlelady from Guam, you mentioned the synaptic connections. 
We just rewrote the Head Start bill. And I was a key sponsor of 
that bill. That was written in 1965 originally, before they 
even knew about this physical structure, laying down the 
structure of the brain. But we incorporated all of that 
knowledge in Head Start because we know that I was rocking my 
week-old granddaughter the other night and talking to her, 
using her name even, talking to her. And that is part of the 
development of the brain right there. Thank you for bringing it 
up.
    The gentlelady from Guam, Mrs. Bordallo.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    First let me say what an ideal setting this is, although I 
am a little warm. [Laughter.]
    I shouldn't be. I am from an island. But the sounds of 
nature and all around us, I mean, it is beautiful. And we had 
such outstanding speakers, everything from the educators all 
the way down to the entrepreneurs.
    I am the Chairman of the subcommittee in Natural Resources 
on fisheries, wildlife, and oceans. So I feel that I am in the 
right place this morning.
    I have the distinction of having the veteran Mr. Kildee on 
my committee. And I am very pleased. He has had so many years 
in Congress; and, of course, my colleague who came into 
Congress at the same time as I did, Mr. Grijalva. The one that 
isn't a member is Mr. Sarbanes, but I think he will probably 
sign up next time around. [Laughter.]
    Ms. Bordallo. I have some questions, a couple of questions, 
for Dr. Grasmick and Ms. Harris, but I want to talk to the 
entrepreneur. I was real impressed with how you are so young 
and you have this company in which you have invested millions 
of dollars.
    Would you say, Mr. Davidson, that--do you talk to other 
students now that you are in this company and you are 
developing this company? Do you talk to students of different 
ages to encourage them about the environment, like you are 
doing today? I mean, are there other instances where you may 
talk to them at schools?
    Mr. Davidson. I have, actually. I spoke at the Business 
Club at University of Maryland-College Park, talking about my 
experience and relating the environmental aspects of it as 
well. And to the people that I meet and do get to interact, I 
always----
    Ms. Bordallo. Do you think that we are making progress? Mr. 
Davidson, do you think students are more interested today than 
they were when you went to school? However, you are very young. 
So you just went a few years ago. Do you find the interest 
picking up?
    Mr. Davidson. It is. It is something talked about in the 
media all the time. And I think students--I have a younger 
brother that just graduated high school last year. And I think 
they are grappling with trying to make some of those 
connections because they hear about it all the time. So I have 
heard inquiries.
    Ms. Bordallo. The other question is the governor mentioned 
about the need to include a range of stakeholders in 
environmental education partnerships. Can you discuss the 
importance of including businesses, particularly 
environmentally aware businesses, in such partnerships? Would 
you encourage that?
    Mr. Davidson. I would, absolutely. You know, the businesses 
are part of the lifeblood of our economy. And nonprofit 
stakeholders have a lot of resources and experience in what 
they do. And so do businesses. And I think there is a strong 
interest in the business community that they can get involved 
in some way where they can lend their expertise or some 
resources.
    Ms. Bordallo. Was your education in environment all 
obtained here in the State of Maryland?
    Mr. Davidson. It was.
    Ms. Bordallo. Well, then we can congratulate all of the 
educators here. [Laughter.]
    My last question, is your business profitable? It is 
getting there?
    Mr. Davidson. We have been producing biodiesel since 
November 2007.
    Ms. Bordallo. Good. I have a question now for Dr. Grasmick 
and Ms. Harris. You know, at this level it is very important to 
have parents involved. I was reading this book, not that I 
wasn't listening to the testimony, but I did read it about the 
oyster program and so forth and how the families are very much 
involved, the parents.
    So what feedback have you received from parents on the 
impact of these environmental programs?
    Ms. Grasmick. I would say from a state perspective, it has 
been outstanding. We want to accelerate our efforts and get 
more parents engaged, but we also see our students through 
their exposure as being incredible ambassadors.
    And I would just draw the analogy to the stop smoking 
campaign we had with our young people and all the dangers of 
smoking. And honestly there was nothing that engaged parents in 
a more profound way. Children would say, ``I don't want to ride 
in the car with you if you are smoking. I am not going to ride 
in the car with you if you are smoking.''
    We are now doing the same things relative to those 
activities and energy conservation. And so children are saying 
to their parents, ``We have to have energy conservation in our 
house. We have to recycle.'' Parents who would not necessarily 
pursue that, the children are really the ambassadors.
    And so we do see this having a positive effect on the 
engagement. And that is a good thing because it is not only 
helping the parents to also appreciate all of the potential of 
the environment, but it is also ensuring that we have more 
interaction between children and parents. And that is an effort 
that we are continuing to make in the State of Maryland.
    Ms. Bordallo. And I feel it would be very embarrassing to 
parents to be told what to do and what not to do by their 
children.
    Ms. Grasmick. Absolutely.
    Ms. Bordallo. So certainly they should listen.
    Ms. Harris?
    Ms. Harris. We have several different goals in our school, 
but one of our goals is to involve not just our parent 
community but our business community as well. And so we have 
business partners that help us with our environmental projects. 
I have a group of parents that work with the students to do our 
recycling program after school.
    Any time we have children outside we have parents involved. 
They are there to help. They are there to teach. They are there 
to just supervise.
    Just recently we had a school-wide environmental night. And 
the children and the parents both work through environmental 
projects together. Again it is how do you make that parent-
child connection because that really will make the difference.
    The children go home and talk about what they are learning. 
It is in our parent bulletin. It is on our announcements. And 
then they share that information with the parents. And it 
encourages the parents to do the same kind of thing.
    Again, we are very blessed at Pot Spring that we have an 
enormous supportive parent population. And so they come for 
everything that we ask them for. And they come when we don't 
ask them just because they are involved and they want to be 
involved.
    But I think that partnership, the partnership, with the 
local community is equally as important with businesses that 
are in the community, getting them to donate, either time or 
goods, to help with our projects that we are doing around the 
school.
    And then they know what they are doing and they get 
involved. Our kids teach them as well.
    Ms. Bordallo. Yes.
    Ms. Harris. So it has to be a whole effort. It really does.
    Ms. Bordallo. Well, we have gone a long time without 
speaking about the environment like we are doing in the last 
five to ten years. And it is just swelling as we go on.
    And I commend the author of this legislation. I am excited 
about it. And I am very excited to initiate some of the 
programs in the territories, Mr. Sarbanes. So we must include 
states and territories in this legislation. [Laughter.]
    Mr. Sarbanes. That is my take-away.
    Ms. Bordallo. Thank you.
    Thank you very much, an outstanding panel of witnesses 
today. Thank you very much. [Applause.]
    Chairman Kildee. I thank the gentlelady. I have no plans 
for a second round of questions. However, Mr. Sarbanes has a--
--
    Mr. Sarbanes. I have no questions, Mr. Chairman. I just 
wanted to make a couple of comments. One is to thank the panel, 
what a tremendous panel, to again salute Patuxent for making 
this available to us and all the others that help bring this 
together just on a logistical basis.
    What I am taking away is that our children need to be 
outside for them, but they need to be outside for us. If we 
don't make that connection to the environment for the next 
generation, then we are all going to suffer for it. And I think 
we have been able today to shine a light on that.
    The coalition that is supporting this legislation I want to 
thank them again. And then, finally, I want to thank the 
students who have been sitting here listening to this 
testimony, who showed us this morning all the exciting things 
that they are doing and, as Dr. Grasmick said, really are the 
ambassadors in so many ways. So we are here doing this hearing 
for you, and I appreciate your attending it today.
    Thank you, Mr. Chairman.
    Chairman Kildee. Thank you very much, John. I really 
appreciate, John, you putting together such a great panel. I 
mentioned I have been in Congress 32 years, and this is in the 
top one percent of panels that I have listened to, very, very 
good. [Applause.]
    You know, we refer to any hearing we have outside of 
Washington, D.C. as a field hearing. What a field. [Laughter.]
    And what a hearing, right? It is wonderful. And a hearing 
like this is a major step in advancing legislation like this. 
So, John, you have taken that first major step on that, which 
is a very, very important introduction. And this hearing has 
been very, very helpful.
    So I want to thank all of you. Each one of you has made 
your contributions. You have overlapped, and you have 
coordinated. You reinforced individual ideas, all of these 
things. Again, I just want to thank you personally, thank the 
students particularly. You have been great. If you were my 
students, I would take you out to Sleepy Hollow also. 
[Laughter.]
    I have to wrap up some of the legal things here now. As 
previously ordered, members will have seven calendar days to 
submit additional materials for the hearing record. Any member 
who wishes to submit follow-up questions in writing to the 
witnesses should coordinate with majority staff within the 
requisite time.
    And, without objection, this hearing is adjourned.
    [Additional submissions by Mr. Kildee follow:]

Prepared Statement of Zenobia Barlow, Cofounder and Executive Director, 
                       the Center for Ecoliteracy

    My name is Zenobia Barlow. I am cofounder and executive director of 
the Center for Ecoliteracy, a national nonprofit foundation based in 
Berkeley, California that is dedicated to education for sustainable 
living.
    I am pleased to submit written testimony before the House Education 
and Labor Committee, subcommittee on Early Childhood, Elementary and 
Secondary Education, on ``Environmental Education: Teaching Our 
Children To Preserve Our Future.''
    I want to thank Chairman Miller and Reps. McKeon, Kildee, and 
Castle for including much of the No Child Left Inside Act (H.R.3036) in 
the Education and Labor Committee's staff draft of the NCLB 
reauthorization bill and respectfully urge them to help achieve passage 
of the NCLI Act in this Congress. I also applaud them for their 
leadership in helping to close the achievement gap.
    I have been engaged in education for sustainability for more than 
17 years, and cofounded the Center for Ecoliteracy in 1995 with systems 
theorist and author Fritjof Capra (Tao of Physics, The Turning Point, 
Web of Life) and philanthropist and former CEO Peter Buckley.
    Since then, the Center has provided financial, intellectual, and 
practical support to hundreds of schools committed to organizing their 
curriculum and community around environmental project-based learning, 
and reached thousands of educators through our active web and 
publishing programs. We have developed and offer seminars and 
professional development institutes attended by educators from across 
the United States and countries from every continent in the world. With 
support from the California Endowment, the W.K. Kellogg Foundation and 
other funders, we also developed the Rethinking School Lunch program, 
which has been widely adopted to assist schools in improving school 
lunches and making learning connections between food, heath, and the 
environment in the curriculum.
    Through our work, we have repeatedly seen how important it is that 
young people understand the web of life upon which we are dependent for 
our well-being. Making connections between what we do as individuals, 
families, communities, and nations--and the impact on the Earth--is the 
highest goal of education for the environment. It is also critical to 
all education that will prepare students for the world in which they 
will live.
    As you know, the No Child Left Behind Act has done just the 
opposite--significantly narrowing the curriculum and diminishing the 
role of environmental education. This is a most untimely development 
with potentially devastating consequences for the future economic and 
environmental well-being of our nation.
    With the rise of environmental problems such as global warming and 
worldwide food and water shortages, there is today an urgent need to 
prepare young people to meet the challenges that have already begun to 
destabilize our society and societies around the globe. There is also a 
vital need to help them learn what they need to know to create more 
sustainable societies in the future, societies that better harmonize 
human needs with those of the natural world upon which we depend.
    This essential work can only be accomplished by advancing 
environmental education in K-12 schools nationwide--education in which 
experiences in nature are linked to classroom experiences that help 
students develop the knowledge, values, and skills to understand what 
they observe in nature. This kind of education also enables students to 
develop the ability to deal with downstream consequences of individual 
and community actions and the capacity to care about those who are 
affected.
    The good news is that many school communities are integrating such 
indoor learning with outdoor experiences while promoting an 
understanding of the natural world as one interconnected system or 
biosphere, the web of life that holds all humanity and everything we 
value.
    Now we must put the financial and institutional supports in place 
that will encourage and enable more educators to do the critical work 
of preparing America's young people for the environmental challenges 
and opportunities that lie ahead.
                                 ______
                                 
    [Statement of Mr. Baker follows:]

   Prepared Statement of William C. Baker, President, Chesapeake Bay 
                               Foundation

    Thank you, Mr. Chairman and members of the Committee, for 
scheduling this field hearing here in the heart of the Chesapeake Bay 
watershed and for this opportunity to submit this statement for the 
record.
    The Chesapeake Bay Foundation is the largest regional field-based 
environmental education program in the country. We work closely with 
schools and school systems throughout the watershed to provide teacher 
training and one and multi-day field experiences for students. Our 
programs are designed to engage students, deepen their understanding of 
their environment and support student achievement.
    After nearly two decades of steady growth, our environmental 
education programs began to experience a noticeable drop in enrollment 
in the past few years. Other environmental education providers in the 
watershed and around the country told us they were experiencing similar 
declines. When we asked teachers and school administrators the reasons, 
they pointed to two things: pressure to improve test scores in reading 
and math and budgetary constraints.
    This was happening at the same time that every report and indicator 
was suggesting that more, not less, time and effort should be devoted 
to environmental and outdoor education. For example:
    <bullet> An annual report card on environmental attitudes, 
knowledge and behavior conducted by Roper Reports finds that two-thirds 
of all Americans fail an even basic environmental quiz.
    <bullet> Two reports by the National Science Foundation published 
in 2000 and 2003 called for a systemic approach to environmental 
education.
    <bullet> A nationwide study conducted by the State Education and 
Environment Roundtable found that environmental education has a 
measurably positive impact not only on student achievement in science, 
but also in reading, math, and social studies, when integrated into K-
12 curricula or used as an integrating theme across the curriculum.
    <bullet> Two reports to Congress by the National Environmental 
Education Advisory Council released in 1996 and 2005 called for raising 
the level of environmental literacy of Americans.
    And it was happening at a time of growing recognition that people--
and particularly our youth--are increasingly disconnected from nature, 
spending more time inside and not outside playing, exploring and 
learning. This trend was highlighted by Richard Louv in his book Last 
Child in the Woods and by one of today's witnesses, Oliver Pergams in a 
recent study published in the Proceedings of the National Academy of 
Sciences entitled ``Evidence of a fundamental and pervasive shift away 
from nature-based recreation.''
    In an effort to address what we believe is a national crisis in 
environmental education, the Chesapeake Bay Foundation became a 
founding member of the No Child Left Inside Coalition--a diverse group 
of environmental, education, health and business organizations who care 
about environmental education. We came together just over a year ago 
with the goal of restoring and enhancing environmental and outdoor 
education in our nation's schools and school systems. From a handful of 
organizations, we now comprise 200 members, representing some 20 
million people. In my judgment, this rapid growth reflects the deep 
concerns about this issue and the strong public support, across the 
spectrum, for restoring environmental education to our nation's indoor 
and outdoor classrooms. Polling data confirms this support, finding 
that 95% of Americans surveyed support environmental education in our 
schools.
    The No Child Left Inside coalition enthusiastically supports the 
bipartisan legislation introduced by Representative John Sarbanes and 
Senator Jack Reed known as the No Child Left Inside Act. This 
legislation would amend the No Child Left Behind Act to provide 
incentives for states to develop and implement plans to ensure that 
students graduate from high school environmentally literate. It 
authorizes $100 million a year in federal funding to states to train 
teachers in environmental education, to operate model environmental 
education programs, including outdoor learning, to support research and 
strategic initiatives to advance the field and to encourage states to 
develop and implement environmental literacy plans. These plans are 
critical to ensure that environmental education programs are fully 
integrated with NCLB and state goals to improve student performance and 
effectively reach the most students and teachers possible. We want to 
commend Governor O'Malley for his Executive Order establishing a 
partnership to develop and implement what we hope will be the first of 
many state environmental literacy plans. This Executive Order is an 
important step forward in ensuring that all of Maryland's students will 
receive a basic grounding in the environment.
    Mr. Chairman, we have a tremendous opportunity with the No Child 
Left Inside Act to make a difference--for education, for the 
environment, and for our future. If NCLI is enacted, we will implement 
the recommendations of the studies I cited earlier and have a systemic 
approach to environmental education which will raise the level of 
environmental literacy of Americans. We will help meet the student 
achievement goals of the No Child Left Behind Act. We can help address 
the disturbing trends and health impacts of nature deficit disorder. 
And we will graduate a generation of students who are fundamentally 
prepared with the skills and knowledge to deal with the challenges they 
face on an individual, national and global basis--whether that's 
reducing their carbon footprint, or cleaning up Chesapeake Bay. I want 
to commend the Committee for holding this hearing and urge you to move 
swiftly to approve this critical legislation.
                                 ______
                                 
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. I regret that I can not be here with Representative 
Sarbanes, Governor O'Malley, and our distinguished witnesses and guests 
today.
    I'm looking forward to learning about helping students to connect 
with the environment.
    When we teach students to face critical environmental issues like 
climate change, energy conservation, air pollution, habitat 
conservation, or the importance of protecting Chesapeake Bay, we are 
not only preparing them to be better stewards of the environment and 
all that that brings with it, but we are also preparing them to play an 
important role in strengthening our economy.
    Environmental education has been with us for a long time, but it 
may be facing a change. Outdoor education, such as field trips to bays 
or local ponds, are fun and important. Those trips can be the first 
exposure a child may have to the splendor and fragility of nature, and 
the impact people have on it.
    Now, we need to take environmental education to the next level. In 
addition to getting kids outdoors, which is so important, we must 
ensure that students learn about the environment as if our society and 
our local communities depended on it--because the fact is, they do 
depend on it.
    The future health of our planet and the future success of our 
economy depend on students integrating environmental education into 
their overall education.
    That is what is exciting about the Sarbanes bill and the overall 
issue of environmental education.
    As more and more businesses `go green,' we will need new crops of 
students who are capable of and excited about being environmental 
innovators--developing products and processes that are environmentally 
sound and economically important.
    America's success in the world came from being innovative--in 
science and technology, in politics, and in education. We can continue 
to be a leader in the world for positive solutions to our world's 
problems by continuing to push forward with environmental technology, 
environmental science and environmental problem solving.
    The schoolchildren of today are those future engineers, 
environmental scientists, and problem solvers.
    I'm proud to say that California has been a leader in environmental 
education. There have been great statewide and local efforts to involve 
students with the environment. California is in the process of 
developing an Environmental Education Initiative to help integrate the 
subject into the classroom.
    We can assist teachers and principals in addressing environmental 
education inside and outside the classroom. Environmental education is 
a powerful tool to help motivate students to take care of the 
environment and help improve the academic achievement of students.
    I have been working with Representative Sarbanes on his legislation 
and in fact last year we included language from his bill, No Child Left 
Inside, into the discussion draft to reform No Child Left Behind that 
was the basis for discussions in the Education and Labor Committee and 
the larger education community.
    The Sarbanes language would provide funding for environmental 
education professional development for teachers and also funding to 
help expand environmental education and disseminate information on 
proven environmental education programs. We will work with Rep. 
Sarbanes this year and next year as we find a way to move the k-12 
reform agenda forward.
    I'd like to thank Rep. Sarbanes for pushing this issue forward and 
I look forward to learning more about how Maryland is working to make 
environmental education a priority in its schools.
    Thank you.
                                 ______
                                 
    [The statement of Mr. Sarbanes follows:]

   Prepared Statement of Hon. John P. Sarbanes, a Representative in 
                  Congress From the State of Maryland

    Thank you Mr. Chairman. Again, I appreciate very much your 
willingness to conduct this field hearing. The whole idea here for 
today's hearing outdoors was to emphasize the point of bringing 
children from indoors to the outdoors by doing it ourselves. And, we 
were incredibly lucky with the weather, so thank you for allowing us to 
have this hearing outdoors as well.
    Governor, your leadership with respect to the environment is well-
known to Marylanders and is becoming well-known across the country. I 
thank you for your leadership. There is real synergy between what we're 
trying to do with No Child Left Inside (NCLI) and what you proposed 
with your executive order because NCLI is encouraging states to develop 
these environmental literacy plans and encouraging them by offering 
funding that can help support activities behind those.
    Maryland is clearly positioning itself to be at the forefront of 
this important issue and to have that kind of environmental literacy 
plan. When it comes to the federal government Maryland, among other 
states, says we need the resources to support it. I think it's a great 
example of the partnership between the federal government and the state 
government. I am sure as you have attended these conferences of 
governors across the country you are hearing about the whole green job 
movement which is something that environmental education obviously sets 
up in a very constructive way.
    Thank you Mr. Chairman. I also just wanted to emphasize a couple of 
things. First, I wanted to thank the staff here at the Patuxent 
Wildlife refuge for all the logistical support to make this hearing 
happen. I have been here numerous times to various events and every 
time it goes off without a hitch (I'll knock on wood since I know we're 
not finished but I think it will go on). I also want to thank the 
Education and Labor Committee staff for helping to make this day 
possible; Delicia Reynolds on my own staff is the point person--I want 
to thank her for her efforts. Most important, I wanted to make a point 
to thank the students that are here--really they are what it's all 
about.
    The most important thing about Environmental Education and today's 
hearing is the mutuality dimension of caring for our environment, 
particularly with respect to the Chesapeake Bay. The Chesapeake Bay 
watershed of course includes 6 states and DC. While soliciting support 
for the No Child Left Inside Act, I have gone to members of Congress 
who represent many different places across the Watershed and Bay area. 
I have talked to them about how much I care about a stream or river in 
their district. They have looked a little bit perplexed and wondered 
why, and then I explain because the watershed begins in your district--
as far north in fact as Cooperstown, NY. The notion that we can escape 
the obligation for our environment by being a little bit more removed 
is delusional. The way we are going to save this bay, the Chesapeake 
Bay, the way you're going to save it, the way these students are going 
to save it is by tending to the needs of our environment again right 
there in your own backyard.
    Somebody handed me this family circus cartoon from today. I didn't 
see it, but if any of you have not seen it, you should. It is a picture 
of these two boys (I don't know their names) but they are sitting under 
a tree, chewing a blade of grass, and one says to the other ``this is 
my favorite learning place--Schoolhouse earth.'' And that's the point 
that we're trying to make here today.
                                 ______
                                 
    [Additional submissions of Mr. Sarbanes follow:]

                                     501 East Pratt Street,
                                                     Baltimore, MD.
Hon. John M. Sarbanes,
U.S. House of Representatives, Washington, DC.
    Dear Rep. Sarbanes: Thank you for the opportunity to submit written 
testimony in support of the field hearing on Environmental Education: 
Teaching Our Children To Preserve Our Future held April 22, 2008 at the 
Patuxent National Wildlife Refuge.
    We request the testimony be submitted for the hearing record.
    Again, thank you fro supporting environmental education through the 
No Child Left Inside Act.
            Sincerely,
                                      Joe Harber, Director,
                Education Programs, National Aquarium in Baltimore.

    On behalf of the National Aquarium Institute, we are pleased to 
submit written testimony before the House Education and Labor 
Committee, subcommittee on Early Childhood, Elementary and Secondary 
Education, on Environmental Education: Teaching Our Children To 
Preserve Our Future.
    We wish to thank Chairman Miller and Reps. McKeon, Kildee, and 
Castle for including much of the No Child Left Inside Act (H.R.3036) in 
the Education and Labor Committee's staff draft of the NCLB 
reauthorization bill and urge them to help achieve passage of the NCLI 
Act in this Congress. We applaud them for their leadership in helping 
to close the achievement gap.
    We also wish to thank Rep. John P. Sarbanes for extending an 
invitation to attend the Congressional Field hearing on April 22, at 
the Patuxent Wildlife Research Center.
    The National Aquarium Institute representing the National Aquarium 
in Baltimore, the National Aquarium in DC, the future Center for 
Aquatic Life and Conservation, and the National Aquarium Foundation is 
committed to providing environmental education programs to youth, 
adults and families. Our education and conservation programs contain 
many elements of import to this legislation.
    The Aquarium's AquaPartners program uses the Chesapeake Bay 
watershed as a topic that is both engaging for students and teachers 
and critical to science and environmental education in Maryland. 
Further, it helps schools meet the 2010 Chesapeake Bay Agreement to 
provide all students with a ``meaningful Bay experience.'' The program 
is designed to bring the science curriculum to life while offering 
young people, who do not have many occasions to see the world beyond 
their own urban environment, an opportunity to experience the wonders 
of the natural world. The program includes a Summer Workshop for 
teachers, classroom outreach during the year, and field study trips to 
the Chesapeake Bay at the Ft. McHenry Field Station and Sandy Point 
State Park.
    Conservation is at the heart of the Institute's mission and 
programs. The Chesapeake Bay Initiative includes a volunteer corps that 
restores wetlands by planting beneficial marsh grasses, monitoring the 
health of created wetlands, and conducting outreach restoration events 
for local community groups.
    In 2002 the Aquarium enhanced its existing community partnerships 
by providing area students with opportunities to grow wetland plants at 
their schools and participate in habitat restoration projects through 
the Wetland Nursery Program. Through this program, students contribute 
to restoration of Chesapeake Bay tidal wetlands, investigate the life 
cycle of plants and their importance to the estuarine ecosystem, help 
maintain wetland plant nurseries, test water quality, and gain problem-
solving skills.
    Since the 2002 inaugural year, the systems at several participating 
Wetland Nursery Schools have been upgraded to the AquaEcosystem, a 
system that also includes native Chesapeake Bay fish. In this 
integrated, closed-loop system, fish wastes fertilize the marsh grass, 
which in turn filters the water before it is returned to the fish. 
Students are responsible for regularly testing water quality and 
monitoring the growth of their fish. Aquarium staffers visit the 
schools and engage the students in activities that teach them about the 
Chesapeake Bay and the importance of wetland habitats.
    These activities are supplemented by Aquarium-led field trips to 
restoration sites throughout the Chesapeake Bay, where students gain 
additional hands-on experience. After the plants and fish have grown 
for a few months, the students, accompanied by program staff, 
transplant the plants and release the fish at an Aquarium-sponsored 
restoration site.
    Both the AquaPartners and AquaEcosystem Wetland Nursery programs 
incorporate outdoor educational experiences with classroom instruction. 
The classroom and field components are integrated into the school's 
curriculum, and aligned with State and national education standards.
    Results of program evaluations show these programs significantly 
increases students' positive attitudes towards the Chesapeake Bay, and 
in addition, provide students with the knowledge and tools to make 
positive changes to the health of the Bay. Improving students' 
attitudes towards science is an important precursor to increasing 
student achievement.
    The challenges facing the Chesapeake Bay and our world's oceans are 
immense. Depleted fish stocks, coastal development, and climate change 
are just a few of the challenges facing the citizens of this country 
and the world.
    We need to equip the young people of today with the experiences, 
skills, and abilities to solve these growing problems. Environmental 
education experiences with direct contact with the natural world are 
critical to achieving that goal.
    Again, we wish to thank Chairman Miller and Reps. Sarbanes, McKeon, 
Kildee, and Castle for their support and urge them to help achieve 
passage of the NCLI Act in this Congress.
                                 ______
                                 

  Prepared Statement of Larry Schweiger, President and CEO, National 
                          Wildlife Federation

    Thank you Chairman Kildee, Ranking Member Castle, Congressman 
Sarbanes and members of the Subcommittee for hosting this field hearing 
on environmental education and connecting children to nature. I 
appreciate the opportunity to submit testimony for the hearing record 
this Earth Day about importance of environmental education and the 
National Wildlife Federation's commitment to connecting people, 
especially children, with nature.
About the National Wildlife Federation
    The National Wildlife Federation is the largest non-profit 
conservation, education, and advocacy organization with more than four 
million members and supporters throughout the United States. The 
National Wildlife Federation's family also includes forty-seven states 
and territorial affiliate organizations. Founded in 1936, the National 
Wildlife Federation works for the protection of wildlife species and 
their habitat, and for the conservation of our natural resources.
Overview
    Looking out of my home-office window, I can see down a long 
forested valley across North Park to a far-away place appropriately 
called ``wildwood'' where nine decades ago, Rachel Carson and her 
mother Maria roamed the Pine Creek bottoms, explored rock outcrops and 
woodlands, listened to birds, and discovered spring wildflowers and 
insects. These hours in the fields of western Pennsylvania profoundly 
influenced one of the 20th century's greatest women by fostering a rich 
sense of wonder and profound love of nature.
    Perhaps reflecting on her wildwood walks with her mother Rachel 
wrote later in life, ``If a child is to keep alive his inborn sense of 
wonder without any such gift from the fairies, he needs the 
companionship of at least one adult who can share it, rediscovering 
with him the joy, excitement and mystery of the world we live in.''
    Rachel would be deeply saddened by what has happened to the 
traditional connection between Americans and the outdoors, something 
that is markedly different than anything in our past. The evidence is 
everywhere. The average child today spends more than 6 hours daily 
watching TV, playing video games or operating a computer. Meanwhile, 
the amount of time U.S. children now spend outdoors has declined by 50 
percent in the past 20 years.
    An important connection between being outdoors and caring for 
nature is being broken, and it greatly concerns me. Children who fish, 
camp and spend time in the wild before age 11 are much more likely to 
grow up to be environmentally committed as adults, report Cornell 
University researchers. It was for me.
    As a child, I spent many hours outdoors with my father, who was a 
dog trainer and hunter. He died more than 30 years ago, yet when I go 
to the woods and smell a familiar plant or hear a distant crow on a 
crisp fall day, my memories of being with Dad come flooding back in 
rich detail, as if it were yesterday. In those moments I can hear his 
voice clearly and I can see his ruddy face in the golden light of an 
early morning sun. I cherish those memories.
    Although many environmental advocates speak of early experiences in 
nature that formed their connection, people of all professions often 
talk fondly of childhood experiences outdoors. Most adult Americans had 
a childhood were they could ``go outside and play,'' four little words 
rarely heard today.
    What will become of wild places, if children know little of the 
mystery, the grace, the interconnectedness of all living things? How 
will we address global warming and other environmental threats if we do 
not engage and prepare the next generation for these monumental 
challenges? We only save what we love and we only love what we know.
    It's time to take action. As one of the largest conservation 
organizations in the country, the National Wildlife Federation is 
committed to helping children ``rediscover the joy, the excitement, and 
the mystery'' of our world.
    National Wildlife Federation, with over 70 years of experience 
inspiring and fostering a connection with nature and wildlife continues 
to lead the way. Our award-winning Ranger Rick magazine for children 
has sparked curiosity about nature and wildlife in generations of 
children. Every month it delivers engaging stories, wildlife images and 
ideas for fun outdoor activities. In response to increasing demand for 
age appropriate magazines about animals for younger children, National 
Wildlife Federation also offers Your Big Backyard and Wild Animal Baby 
magazines for families with children 3-8.
    With tens of thousands of certified Backyard Wildlife and 
Schoolyard Habitats, our wildlife gardening programs help individuals 
and families attract birds, butterflies and other local wildlife to 
backyards across the country. A more recent addition to the suite of 
fun family outdoor activities is the National Wildlife Federation's 
Great American Backyard Campout, which is reconnecting families, 
neighborhoods and entire communities through camping, by sharing 
campfire stories and eating s'mores.
    To encourage parents and caregivers to make time for children to 
``go outside and play,'' National Wildlife Federation launched Green 
Hour, www.greenhour.org, a source of information and inspiration to 
create daily free time outside for children.
What Is at Stake?
    Children are no longer spending time playing outside. Today's kids 
spend six and a half hours a day ``plugged into'' electronic media. 
Research shows that children are spending half as much time outside as 
they did 20 years ago. In his 2005 book, Last Child in the Woods, 
Richard Louv described this American trend. He gave this alarming 
problem a powerful name. Today's kids suffer from a ``nature deficit.''
    The Health of Our Children. Nature deficit has had profound impacts 
on our children's mental and physical health. Over the past 20 years, 
time spent playing outdoors has been cut in half, but the childhood 
obesity rate has more than doubled and the adolescent obesity rate has 
tripled. Doctors warn that, for the first time in American history, 
life expectancy may actually decrease because of the health impacts of 
the current childhood obesity epidemic.
    Research has linked childhood obesity to a lack of playtime 
outdoors. Although physical activity through organized sports can help 
address childhood obesity, the medical community recognizes that 
unstructured free time outdoors has unique health benefits to children. 
Children who play outside are more active and more physically fit. Time 
in nature improves children's academic performance, concentration, 
balance, coordination, and self-esteem. Recent studies indicate that 
playing outside even reduces the severity of symptoms of Attention 
Deficit/Hyperactivity Disorder (ADHD), which affects millions of 
American children.
    The Economy. The economic impacts of nature deficit are 
significant. The costs of the childhood obesity epidemic to our public 
health systems could reach $100 billion annually. Hunting and fishing 
licenses sales have stagnated, resulting in severe cuts to state 
resource agencies' budgets. A decline in outdoor retail sales, a $730 
billion a year industry sector, may soon follow.
    The Future of American Conservation. From the redwood forests to 
the Gulf Stream waters, exploring the diverse landscapes of America has 
shaped who we are as Americans. Children who spend time in nature are 
more likely to have pro-environmental attitudes as adults. Time spent 
in nature with an important adult often shapes a child's long-term 
environmental ethic. If this nature deficit continues unabated, we may 
face a dearth of environmental leaders, professionals, and advocates as 
we try to conquer future environmental challenges like global warming. 
We may also lose a unique aspect of our national culture and identity.
Solutions
    We need to protect our children's future. To reverse nature 
deficit, National Wildlife Federation is working to reconnect children 
to nature through advocating for environmental education, educating our 
public health community about nature deficit, increasing opportunities 
for outdoor recreation experiences for children through better design 
and access, and embarking on a national public outreach campaign to 
encourage parents to build in regular time for outdoor play.
    Several policy actions at the federal, state, local, and personal 
level can make a difference, although I will focus the remainder of my 
testimony on environmental education which would be strongly bolstered 
by passage of the No Child Left Inside Act (H.R.3036).
    Hands-on, experience-based environmental education can reconnect 
kids to the natural world. The National Wildlife Federation supports 
policies that invest in and increase opportunities for environmental 
education to help reverse nature deficit. Environmental education 
programs use the environment as an integrating context (EIC) across 
disciplines, which often results in interdisciplinary, hands-on, 
community-based projects that affect the local environment. There is 
widespread public support for environmental education, with 95 percent 
of adults and 96 percent of parents supporting environmental education 
in public schools. Unfortunately, because of federal education 
legislation, known as the ``No Child Left Behind'' Act, many schools 
have reduced their environmental education budgets to meet these new 
testing and curriculum requirements.
    There are four major types of outdoor education programs that serve 
to reconnect children to nature:
    (1) investigational approaches;
    (2) outdoor learning;
    (3) place-based learning; and
    (4) community service.
    Traditional environmental problem solving in a community or 
``investigational approaches'' have shown to increase test scores on 
environmental knowledge, reading, and writing skills. Outdoor learning 
programs like Outward Bound or the National Outdoor Leaderships Schools 
have become ``meaningful lifetime experiences'' and often promote 
environmental stewardship. Place-based education connects the school to 
its immediate environment. Community service approaches advance 
responsible environmental behaviors and give children an opportunity to 
support local green spaces. Furthermore, experts note that if 
environmental education is done right it can be worth up to $75 billion 
a year in measurable environmental benefits.
    In addition to connecting kids to nature, integrating environmental 
education into school programs has proven academic benefits:
    Sparks Interest in Science and Math as Future Career Pathways. 
According to the National Environmental Education Foundation, 80 
percent of all students decide to opt out of science and math careers 
before entering high school. Environmental education is a ``heuristic 
tool for making science more relevant and appealing,'' and ``provides 
an appealing entry point for students thinking about future careers.'' 
In one study, educators observed thousands of students in environmental 
education programs and found that test scores improved across the 
board. Science was on the only subject where 100 percent of the 
students' scores improved.
    Results in Better Math Scores. In a Houston schools study, fourth 
grade students who participated in the National Wildlife Federation's 
Schoolyard Habitat Program increased math scores significantly more 
than peers with a traditional curriculum. Overall, minority children 
showed more improvement.
    Increases Academic Motivation and Attendance. A Washington state 
study concluded that students enrolled in environmental education 
programs showed better overall GPA improvements and increased 
attendance and motivation. Another study showed that programs using the 
environment as an integrating context (EIC) had better student 
attendance rates 77 percent of the time and fewer discipline problems.
    Closes the Gap in Underserved Communities and Serves as an 
Educational Equalizer. A 2004 study evaluated a place-based 
environmental education project in an under-resourced, predominantly 
African-American Louisiana school district. The performance gap between 
the district's performance and the state average on state educational 
tests improved across all subject areas. The National Environmental 
Education Foundation found that ``environment-based education appears 
to be a kind of educational equalizer, improving reading, science 
achievement, and critical thinking across ethnic and racial groups and 
across socioeconomic levels.''
    Improves Critical Thinking Skills. A recent study examined over 400 
high school students in eleven Florida high schools and contrasted 
students' critical thinking skills in environmental education programs 
and traditional classes. The environmental education classes 
significantly raised students' scores on two nationally recognized 
critical thinking skills tests. Teachers concluded that students' 
critical think-environmental programs involved interdisciplinary 
problem-solving approaches, empowered students by allowing them to 
choose their projects, and allowed students to connect their projects 
to their communities.
    Higher Standardized Test Scores in Reading, Math, Science, and 
Social Studies. Numerous studies, including, an evaluation of student 
performance in 40 schools in 12 states implementing environment as an 
integrating context (EIC), show that students in EIC programs have 
higher scores in reading, writing, math, science, and social studies.
    Increases Self-Esteem and Science Scores. In California, a 
comparison of at-risk sixth-grade students showed that students in 
hands-on environmental education significantly raised their science 
scores by 27 percent, and they showed better self-esteem, motivation, 
and behavior.
    Thank you once again for hosting this field hearing on 
environmental education, a topic that is critical to the health of our 
planet and to the health and educational achievement of our nation's 
students. Thank you also to Education and Labor Committee Chairman 
George Miller and Ranking Member Buck McKeon for including much of the 
No Child Left Inside Act (H.R.3036) in the Education and Labor 
Committee's staff draft of the No Child Left Behind reauthorization 
bill. I urge you to pass the No Child Left Inside Act this year and I 
look forward to working with you.
                                 ______
                                 
    [The statement of Ms. Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    Thank you, Chairman Kildee, for holding this hearing on such an 
important hearing: teaching our children about the environment and how 
children can play key roles in preserving our world's future. This is a 
topic that deserves more discussion and focus as we move towards 
reauthorizing No Child Left Behind and as we continue discussions on 
how to turn back the tide of global warming.
    These environmental education programs, especially those that allow 
students to get out of school and into nature for more hands-on 
learning, provide invaluable lessons to our nation's children. The 
programs can also teach students to be good stewards of the earth and 
to become more active members in strengthening and preserving their 
community. If taught early, these students can go on to play important 
roles in protecting our environment.
    Indeed, many students are being given the opportunity to make a 
difference now. One program has provided students in my District with 
the opportunity to participate in hands-on learning while also helping 
to bring back an endangered species. The Students and Teachers 
Restoring A Watershed (STRAW) Project in Marin County has provided 
teachers and students with the opportunity to learn about science and 
the importance of preserving our environment at the same time. STRAW 
grew out of the Shrimp Project, which was started in 1993 when a group 
of students and teachers worked together to try to find a way to bring 
back the endangered California freshwater shrimp, which was once 
prevalent but, by 1993, were only found in some areas of the Bay area 
creeks. These students worked together with their teachers, scientists, 
restoration specialists, environmental organizations, public land 
agencies, private landowners, and the community to take steps to 
determine what this species needed to survive and how they could 
provide this. These students participated in bird and aquatic insect 
studies, water quality monitoring, planting of native plants, nature 
writing, and other activities. Due, at least in part, to their 
activities, within 2 years of the start of their project, the 
California freshwater shrimp began to make a comeback in the creek in 
which the students were working.
    The STRAW project now reaches 1,200 K-12 students each year. They 
plant an average of 2,200 native plants a year at 25 different 
restoration sites, restoring about four acres of creek bank each year. 
These students also work on erosion control projects and removal of 
non-native and invasive vegetation. This project is a great example of 
how hands-on environmental learning can both compliment what students 
are learning in school while giving students the opportunities to learn 
how to be protect the environment. These students have been able to 
learn about and practice scientific and mathematic principles and 
methods, as well as working on their writing and artwork. This kind of 
project teaches students how their subject areas can be tied together 
and how the students themselves can be connected to the community.
    The Edible Schoolyard is another great example of how students can 
learn about protecting the environment while applying what they learn 
in the classroom to more real world concepts. In the 1990s, chef Alice 
Waters worked with the principal and teachers at the King Middle School 
in Berkeley, California, and members of the community to turn an 
abandoned lot adjacent to the school into a garden. Students and 
teachers participated in everything from removing asphalt and putting 
down soil to designing the garden. Today, the program is a key part of 
the middle school where students garden and learn about cooking 
nutritional meals out of what they've grown. Students are learning 
about nutrition, ecology, and how they can be connected to and thus 
good stewards of land. Since the creation of the Edible School Garden 
at King Middle School, similar models have sprung up all over 
California and across the nation. Many of these great programs are in 
my District.
    These programs are just two examples of the potential of offering 
environmental education programs to our schoolchildren. As we look 
towards ensuring that every student has the best possible education, we 
cannot forget that the best education educates the whole child. 
Children must continue to have access to all subjects, not just those 
that are tested. Environmental education is one great way to tie 
together so many of these important subjects and lessons while also 
teaching students about their environment and how to play an integral 
role in preserving it for their future and the future of their children 
and grandchildren. I look forward to working together to find ways to 
promote and encourage environmental education and continuing to create 
these future stewards of the environment.
                                 ______
                                 
    [Additional material submitted by Governor O'Malley 
follows:]

                    Executive Order (01.01.2008.06)

              Maryland Partnership for Children in Nature

WHEREAS, The natural world is a successful model for many values that 
        human communities seek: continuity, stability and sustenance, 
        adaptation, sustained productivity, renewal without exhaustion 
        of resources, and thriving in an environment of diversity;

WHEREAS, To sustain the natural world in Maryland-including the 
        Chesapeake Bay and hundreds of thousands of acres of diverse 
        land and habitat-requires the stewardship of future generations 
        and business leaders;

WHEREAS, Stewardship is not possible without a strong sense of 
        connection to the natural world;

WHEREAS, Maryland's children are losing their connection with our 
        natural world, an alienation that threatens the future of 
        Maryland's great natural resources and the quality of life for 
        future citizens, diminishes use of the senses, creates 
        attention difficulties and causes higher rates of physical and 
        emotional illness and obesity;

WHEREAS, Spending frequent time outdoors in unstructured and structured 
        experiences is the best way to develop a connection to nature 
        and the foundation on which to build an environmental 
        stewardship ethic;

WHEREAS, There is a need to continue and expand outreach that will 
        engage individuals and organizations in the minority community 
        in partnerships with State government in promoting a high 
        standard of life through the conservation, restoration and 
        preservation of natural resources;

WHEREAS, Environmental education increases student engagement in 
        science, improves student achievement in core subject areas, 
        and increases student awareness about individual actions they 
        can take to restore the health of the natural environment; and

WHEREAS, Maryland must renew its efforts to ensure that its children 
        grow to become informed and responsible stewards of the 
        environment and prepared for future environmental challenges 
        and opportunities as individual citizens and as members of the 
        workforce.

    NOW, THEREFORE, I MARTIN O'MALLEY GOVERNOR OF THE STATE OF MARYLAND 
BY VIRTUE OF THE AUTHORITY VESTED IN ME BY THE CONSTITUTION AND THE 
LAWS OF MARYLAND, HEREBY PROCLAIM THE FOLLOWING EXECUTIVE ORDER, 
EFFECTIVELY IMMEDIATELY:
    A. Established. There is a Maryland Partnership for Children in 
Nature (The Partnership) to promote outdoor experiential activities and 
environmental education for Maryland's young people and to build a 
coalition of ongoing support for these endeavors.
    B. Membership. The Partnership shall include the following members:
    (1) The Secretary of Natural Resources, or the Secretary's 
designee;
    (2) The Superintendent of the State Department of Education, or the 
Superintendent's designee;
    (3) One representative of the Chesapeake Bay Trust;
    (4) Two representatives of non-profit organizations dedicated to 
environmental education;
    (5) One representative of the Maryland Association for 
Environmental and Outdoor Education;
    (6) One representative of a Parent Teacher Organization
    (7) Two representatives of local governments that have demonstrated 
leadership in sustainable development practices;
    (8) One representative (teacher or principal) from a Maryland Green 
School that has completed a Schoolyard Habitat project;
    (9) Two representatives of urban youth-based organizations;
    (10) One representative of the Maryland Recreation and Parks 
Association;
    (11) One representative of the pediatric medical field;
    (12) A former member of the Task Force on Minority Participation in 
the Environmental Community;
    (13) Two representatives of the business community with 
demonstrated leadership in supporting children in nature; and
    (14) One representative of the National Wildlife Federation.
    C. Appointment and Terms. The members identified in B(3) through 
B(14) of this Executive Order shall be appointed by the Governor, with 
the advice of the Secretary of Natural Resources and the Superintendent 
of Education. Such members shall serve at the pleasure of the Governor 
for 2-year terms.
    D. Meetings. The Partnership shall meet at the call of the Chairs.
    E. Procedures. A majority of the Partnership constitutes a quorum 
for the transaction of any business. The Partnership may adopt any 
other procedures and by-laws necessary to ensure the orderly 
transaction of business.
    F. Expenses. Members of the Partnership shall serve without 
compensation for their services, but they may receive reimbursement for 
reasonable expenses incurred in the performance of their duties in 
accordance with the Standard State Travel Regulations and as provided 
in the State budget.
    G. Consultation. The Partnership shall consult with and engage 
leadership and staff from all other Maryland Executive Departments and 
independent agencies, federal and local government representatives.
    H. Chair. The Partnership shall be co-chaired by the Secretary of 
Natural Resources, or the Secretary's designee, and the Superintendent 
of Education, or the Superintendent's designee.
    I. Staff Coordination. The Department of Natural Resources shall 
provide staff support for the Partnership in coordination with the 
State Department of Education and other State agencies and other 
partners as directed by the Chairs.
    J. Working Groups. The Partnership shall be supported by working 
groups, to be established by the Chairs, to lead the major tasks 
identified under this Executive Order.
    K. Responsibilities. The Partnership shall promote the well-being 
of youth by providing opportunities for increased time spent outdoors 
and environmental literacy through outdoor experiential activities and 
formal and non-formal environmental education. The Partnership shall:
    (1) Develop and implement a plan to provide youth with structured 
and unstructured opportunities for play, outdoor recreation, learning 
and scientific study to include:
    (a) Strategies that provide increased support for Schoolyard 
Habitat Programs, which support the conversion of schoolyards to 
natural habitats for play and outdoor classrooms;
    (b) Creation of trails to connect communities, parks and schools 
via trail systems that encourage walking, biking and increased time 
outdoors by youth and families;
    (c) Greening initiatives that create nature play areas within 
communities to provide outdoor experiences for children close to home;
    (d) A statewide Civic Justice Corps to provide at-risk youth with 
opportunities to serve in conservation crews in State Parks and other 
public lands in partnership with the Maryland Department of Juvenile 
Services and community non-profit organizations;
    (e) An outdoor classroom program that provides voluntary 
curriculum-aligned programming and service learning opportunities on 
public lands in cooperation with local county school systems, local 
parks and non-profit organizations;
    (f) Increased access to naturalists on State Parks and public lands 
to provide interpretive activities for children and families to enhance 
their discovery and enjoyment of Maryland's natural resources; and
    (g) Increased opportunities for under-served communities to access 
Maryland State Parks and public lands through partnerships with 
organizations that serve minority students;
    (2) Develop and implement a State Environmental Literacy Plan to 
include:
    (a) A review of current environmental education efforts in Maryland 
schools, including the environmental education bylaw, the Chesapeake 
2000 commitments, and student environmental literacy levels;
    (b) Identification of curriculum necessary to develop 
environmentally literate students;
    (c) Identification of model outdoor field and service learning 
experiences that can be integrated into the regular school curriculum;
    (d) Professional development opportunities for in-service teachers, 
pre-service teachers, and non-formal environmental educators;
    (e) Methods to annually measure and report at the State and local 
level, progress of public school students toward becoming 
environmentally literate graduates; and
    (f) A process for revising or updating the environmental literacy 
plan every five years, or as needed;
    (3) Devise a method of measuring baseline data and increased time 
spent in nature by children;
    (4) Identify opportunities and barriers to support implementation 
of programs in local school systems and on public lands; and
    (5) Present these plans and a status report on their implementation 
to the Governor by January 1, 2009.

            GIVEN Under My Hand and the Great Seal of the State of 
            Maryland, in the City of Annapolis, this 21st Day of April 
            2008.
                                           Martin O'Malley,
                                                          Governor.
            ATTEST:
                                           Dennis Schnepfe,
                                        Interim Secretary of State.
                                 ______
                                 
    [Whereupon, at 1:00 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
